                               NCUA 2013
                      FINANCIAL STATEMENT AUDITS
                                  FOR
              COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
                      CENTRAL LIQUIDITY FACILITY
                            OPERATING FUND
                         SHARE INSURANCE FUND




                    For the year ended December 31, 2013

          Audited Financial Statements               Audit Report Number

Community Development Revolving Loan Fund                  OIG-14-01
Central Liquidity Facility                                 OIG-14-02
Operating Fund                                             OIG-14-03
Share Insurance Fund                                       OIG-14-04


                              February 18, 2014




                                James W Hagen
                               Inspector General
                                National Credit Union Administration


Office of Inspector General


                                                        February 18, 2014

The Honorable Debbie Matz, Board Chair
The Honorable Michael E. Fryzel, Board Member
The Honorable Rick Metsger, Board Member
National Credit Union Administration
1775 Duke Street
Alexandria, Virginia 22314

Dear Board Chair Matz and NCUA Board Members:

I am pleased to transmit KPMG LLP’s (KPMG) report on its financial statement audit of the
National Credit Union Administration’s (NCUA) financial statements, which includes the
Operating Fund, the Share Insurance Fund, the Central Liquidity Facility, and the Community
Development Revolving Loan Fund as of and for the years ending December 31, 2013 and 2012.
The NCUA prepared financial statements in accordance with the Office of Management and
Budget (OMB) Circular No. A-136 Revised, Financial Reporting Requirements, and subjected
them to audit.

Under a contract monitored by NCUA OIG, KPMG, an independent certified public accounting
firm, performed an audit of NCUA’s financial statements as of December 31, 2013. The contract
required that the audit be performed in accordance with generally accepted government auditing
standards issued by the Comptroller General of the United States, Office of Management and
Budget audit guidance, and the Government Accountability Office/President's Council on
Integrity and Efficiency Financial Audit Manual.

KPMG’s audit report for 2013 includes: (1) an opinion on the financial statements,
(2) conclusions on internal control over financial reporting, and (3) a section addressing
compliance and other matters. In its audit of NCUA, KPMG found:

    •    The financial statements were fairly presented, in all material respects, in conformity with
         U.S. generally accepted accounting principles;
    •    There were no material weaknesses in internal controls; 1
    •    There were no significant deficiencies related to internal controls; 2 and
    •    No instances of reportable noncompliance with laws and regulations it tested or other
         matters that are required to be reported under Government Auditing Standards or OMB
         guidance.

1
  A material weakness is defined as a deficiency, or combination of deficiencies, in internal control, such that there
is a reasonable possibility that a material misstatement of the entity’s financial statements will not be prevented, or
detected and corrected on a timely basis.
2
  A significant deficiency is defined as a deficiency, or a combination of deficiencies, in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with governance.


    1775 Duke Street – Alexandria, VA 22314-3428 – 703-518-6350
Page 2




To ensure the quality of the audit work performed, we reviewed KPMG’s approach and planning
of the audit, evaluated the qualifications and independence of the auditors, monitored the
progress of the audit at key points, and reviewed and accepted KPMG’s reports and related
documentation and inquired of its representatives. Our review, as differentiated from an audit in
accordance with U.S. generally accepted government auditing standards, was not intended to
enable us to express, and we do not express, opinions on NCUA’s financial statements or
conclusions about the effectiveness of internal control or conclusions on compliance with laws
and regulations. KPMG is responsible for the attached auditor’s reports dated February 10-14,
2014 and the conclusions expressed in the reports. However, our review disclosed no instances
where KPMG did not comply, in all material respects, with generally accepted government
auditing standards.

We would like to extend our thanks to NCUA management and staff involved in issuing the
financial statements within the established milestones. In addition, we appreciate the
professionalism, courtesies, and cooperation extended to KPMG throughout the audit and our
oversight of the audit process.

Management and Performance Challenges

The Inspector General is required by law to provide a summary statement on management and
performance challenges facing the Agency. Below we provide a brief overview of NCUA’s
organizational structure, its mission, and vision as well as what we believe are the four key
challenges to agency management in the coming year.

Organizational Structure
Created by Congress, NCUA is an independent federal agency with the unique role of insuring
deposits at all federal and most state-chartered credit unions, protecting the members who own
credit unions, and regulating federally chartered credit unions. A three member politically
appointed Board oversees NCUA’s operations by setting policy, approving budgets, and
adopting rules. As of September 30, 2013, over 95.9 million members have $905.9 billion in
deposits at 6,620 federally insured credit unions. These credit unions have $1.056 trillion in
assets.

Agency Mission and Vision
Throughout 2014 and 2015, NCUA will implement initiatives to continue meeting its mission to
“provide, through regulation and supervision, a safe and sound credit union system which
promotes confidence in the national system of cooperative credit,” and its vision to ensure that
“NCUA will protect consumer rights and member deposits.”
Page 3




Agency Challenges

The Economic Environment
The economic environment will exert considerable influence on the credit union industry in 2014
and 2015. The near-term outlook calls for a pickup in economic growth, although the pace will
still be slower than the long-term average; both labor and housing markets should continue to
improve, and inflation is expected to stay restrained in 2014 and 2015. These factors should
diminish credit risk at the national level. A key concern is the potentially volatile interest rate
environment credit unions will face in 2014 and 2015. Credit unions need to take steps to
mitigate and manage interest rate risk.

The Low Rate Environment and Interest Rate Risk
The current interest rate environment – with short-term rates near zero and long-term rates at
historic lows – is unprecedented. As a regulator, NCUA does not have a specific view on
interest rates. Credit unions’ balance sheets should be robust to a wide variety of rate
environments. However, there is much evidence to suggest that a rising and volatile interest rate
environment is not only on the horizon, but is already underway. Therefore, credit unions should
be particularly attuned to the risks of a rising rate environment.

In a rising rate environment, credit unions with rate-sensitive deposits and fixed-rate assets may
come under multiple stresses as fixed-rate assets lose value, deposit rates rise, liquidity decreases
and earnings are compressed by lower net interest margins.

Cybersecurity
As online and mobile transactions become increasingly integrated into consumers’ interaction
with financial institutions, the risk of hacking and fraud will become substantially higher. Credit
unions will need to enhance the security of their systems to protect themselves and their
members. A particular concern is that a credit union service organization is attacked, which
could potentially compromise a large number of credit unions at once.

Lending trends
Increasing concentrations in new lending areas, including member business loans and private
student loans, emphasize the need for long-term risk diversification and effective risk
management tools and practices, along with expertise to properly manage increasing
concentrations of risk.

                                              Respectfully,



                                              James W. Hagen
                                              Inspector General
Page 4




cc:
Executive Director, Mark Treichel
Deputy Executive Director (Audit Follow-up Official), John Kutchey
Chief Financial Officer, Mary Ann Woodson
General Counsel, Michael McKenna
Director, E&I, Larry Fazio
Director, E&I, Division of Capital and Credit Markets, J. Owen Cole, Jr.
Director, OSCUI, William Myers
Chief Information Officer, Ronnie Levine
President, AMAC, Mike Barton
Director, PACA, Todd Harper
Report #OIG-14-01
National Credit Union
Administration
Community Development
Revolving Loan Fund
Financial Statements as of and for the
Years Ended December 31, 2013 and 2012,
and Independent Auditors’ Report
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

TABLE OF CONTENTS


                                                     Page

INDEPENDENT AUDITORS’ REPORT                            1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2013 AND 2012:

 Balance Sheets                                         3

 Statements of Operations                               4

 Statements of Changes in Fund Balance                  5

 Statements of Cash Flows                               6

 Notes to Financial Statements                         7-12
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                        Independent Auditors’ Report


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

Report on the Financial Statements
We have audited the accompanying financial statements of the National Credit Union Administration
Community Development Revolving Loan Fund (CDRLF), which comprise the balance sheets as of
December 31, 2013 and 2012, and the related statements of operations, changes in fund balance, and cash
flows for the years then ended, and the related notes to the financial statements.

Management’s Responsibility for the Financial Statements
Management is responsible for the preparation and fair presentation of these financial statements in
accordance with U.S. generally accepted accounting principles; this includes the design, implementation,
and maintenance of internal control relevant to the preparation and fair presentation of financial statements
that are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility
Our responsibility is to express an opinion on these financial statements based on our audits. We conducted
our audits in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 14-02 require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free from material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
financial statements. The procedures selected depend on the auditors’ judgment, including the assessment
of the risks of material misstatement of the financial statements, whether due to fraud or error. In making
those risk assessments, the auditor considers internal control relevant to the entity’s preparation and fair
presentation of the financial statements in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity’s internal
control. Accordingly, we express no such opinion. An audit also includes evaluating the appropriateness of
accounting policies used and the reasonableness of significant accounting estimates made by management,
as well as evaluating the overall presentation of the financial statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Opinion on the Financial Statements
In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the National Credit Union Administration Community Development Revolving Loan
Fund as of December 31, 2013 and 2012, and the results of its operations, changes in fund balance, and
cash flows for the years then ended in accordance with U.S. generally accepted accounting principles.

Other Reporting Required by Government Auditing Standards
Internal Control over Financial Reporting
In planning and performing our audit of the financial statements, we considered the CDRLF’s internal
control over financial reporting to determine the audit procedures that are appropriate in the circumstances
for the purpose of expressing our opinion on the financial statements, but not for the purpose of expressing
an opinion on the effectiveness of the CDRLF’s internal control. Accordingly, we do not express an
opinion on the effectiveness of the CDRLF’s internal control.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses or significant deficiencies. Given these limitations, during our audit we did not identify any
deficiencies in internal control that we consider to be material weaknesses. However, material weaknesses
may exist that have not been identified.

Compliance and Other Matters
As part of obtaining reasonable assurance about whether the CDRLF’s financial statements are free from
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
contracts, and grant agreements, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 14-02. However, providing an opinion on compliance with those provisions
was not an objective of our audit, and accordingly, we do not express such an opinion. The results of our
tests of compliance disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards or OMB Bulletin No. 14-02.

Purpose of the Other Reporting Required by Government Auditing Standards
The purpose of the communication described in the Other Reporting Required by Government Auditing
Standards section is solely to describe the scope of our testing of internal control and compliance and the
result of that testing, and not to provide an opinion on the effectiveness of the CDRLF’s internal control or
compliance. Accordingly, this communication is not suitable for any other purpose.




February 10, 2014


                                                   2
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

BALANCE SHEETS
AS OF DECEMBER 31, 2013 AND 2012

                                                                  2013           2012
ASSETS

Cash and Cash Equivalents (Notes 3 and 8)                    $ 12,967,509     $ 12,918,956

Loans Receivable (Notes 5, 7, and 8)                              3,917,909      3,949,022

Interest Receivable (Note 8)                                          3,882          3,283

Total                                                        $ 16,889,300     $ 16,871,261



LIABILITIES AND FUND BALANCE

Liabilities - Accrued Technical Assistance Grants (Note 8)   $     852,010    $ 1,230,923

Fund Balance:

 Fund Capital (Note 4)                                           14,244,241     13,778,866
 Accumulated Earnings                                             1,793,049      1,861,472

        Total Fund Balance                                       16,037,290     15,640,338

Total                                                        $ 16,889,300     $ 16,871,261



See accompanying notes to the financial statements.




                                                      3
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2013 AND 2012


                                                            2013             2012

SUPPORT AND REVENUES:
 Interest on Cash Equivalents                           $      4,835     $      8,405
 Interest on Loans                                            20,969           18,964
 Appropriation Revenue
   Appropriations Expended (Note 4)                         1,002,963        1,492,872
   Cancelled Technical Assistance Grants (Note 6)            (223,832)        (459,049)
       Total Support and Revenues                             804,935        1,061,192

EXPENSES:
 Technical Assistance Grants                                1,107,833        1,744,702
 Cancelled Technical Assistance Grants (Note 6)              (234,475)        (489,802)
 Provision for Loan Losses                                        -                132
       Total Expenses                                         873,358        1,255,032

NET INCOME/(LOSS)                                       $     (68,423)   $   (193,840)

See accompanying notes to financial statements.




                                                    4
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF CHANGES IN FUND BALANCE
FOR THE YEARS ENDED DECEMBER 31, 2013 AND 2012


                                                              Fund Capital
                                                              For Technical
                                                               Assistance    Total Fund Accumulated Total Fund
                                                  For Loans      Grants       Capital     Earnings     Balance
December 31, 2011                                $ 13,387,777 $     177,912 $ 13,565,689 $ 2,055,312 $ 15,621,001

Appropriations Received (Note 4)                             -       1,247,000     1,247,000           -       1,247,000
Appropriations Expended                                      -      (1,492,872)   (1,492,872)          -      (1,492,872)
Cancelled Technical Assistance Grants (Note 6)               -         459,049       459,049           -         459,049
Net Income/(Loss)                                            -               -             -    (193,840)       (193,840)

December 31, 2012                                $   13,387,777 $     391,089 $ 13,778,866 $    1,861,472 $   15,640,338

Appropriations Received (Note 4)                             -       1,247,000     1,247,000           -       1,247,000
Appropriations Expended                                      -      (1,002,963)   (1,002,963)          -      (1,002,963)
Appropriations Rescinded                                     -          (2,494)       (2,494)          -          (2,494)
Cancelled Technical Assistance Grants (Note 6)               -         223,832       223,832           -         223,832
Net Income/(Loss)                                            -               -             -     (68,423)        (68,423)

December 31, 2013                                $   13,387,777 $     856,464 $ 14,244,241 $    1,793,049 $   16,037,290


See accompanying notes to the financial statements.




                                                             5
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2013 AND 2012

                                                                     2013                    2012

CASH FLOWS FROM OPERATING ACTIVITIES:

Net Income/(Loss)                                                $            (68,423)   $      (193,840)
Adjustments to Reconcile Net Income/(Loss) to Net Cash Used in
  Operating Activities:
  Provision for Loan Loss                                                      -                     132
  Appropriations Expended                                               (1,002,963)           (1,492,872)
  Cancelled Technical Assistance Grants                                    223,832               459,049
  Changes in Assets and Liabilities:
   (Increase)/Decrease in Interest Receivable                                 (599)                3,489
   Increase/(Decrease) in Accrued Technical Assistance Grants             (378,913)             (282,905)
       Net Cash Used in Operating Activities                            (1,227,066)           (1,506,947)


CASH FLOWS FROM INVESTING ACTIVITIES:
 Loan Principal Repayments                                                   601,113           1,807,009
 Loan Disbursements                                                         (570,000)         (2,999,999)
    Net Cash Provided by/(Used in) Investing Activities                       31,113          (1,192,990)


CASH FLOWS FROM FINANCING ACTIVITIES:
 Appropriations Received 2013/2014                                          1,247,000                -
 Appropriations Received 2012/2013                                                -            1,247,000
 Appropriations Rescinded                                                      (2,494)               -
    Net Cash Provided by Financing Activities                               1,244,506          1,247,000

NET INCREASE/(DECREASE) IN CASH AND CASH EQUIVALENTS                          48,553          (1,452,937)

CASH AND CASH EQUIVALENTS — Beginning of Year                           12,918,956            14,371,893

CASH AND CASH EQUIVALENTS — End of Year                          $      12,967,509       $    12,918,956



See accompanying notes to the financial statements.




                                                           6
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2013 AND 2012


1. NATURE OF ORGANIZATION

The Community Development Revolving Loan Fund (CDRLF) for credit unions was established
by an act of Congress (Public Law 96-123, November 20, 1979) to stimulate economic
development in low-income communities. The National Credit Union Administration (NCUA)
and the Community Services Association (CSA) jointly adopted Part 705 of NCUA Rules and
Regulations, governing administration of CDRLF, on February 28, 1980.

Upon the dissolution of CSA in 1983, administration of CDRLF was transferred to the
Department of Health and Human Services (HHS). From 1983 through 1990, CDRLF was
dormant.

The Community Development Credit Union Transfer Act (Public Law 99-609, November 6,
1986) transferred CDRLF administration back to NCUA. The NCUA Board adopted
amendments to Part 705 of NCUA Rules and Regulations on September 16, 1987, and began
making loans/deposits to participating credit unions in 1990.

The purpose of CDRLF is to stimulate economic activities in the communities served by
low-income credit unions, which is expected to result in increased income, ownership, and
employment opportunities for low-income residents, and other economic growth. The policy of
NCUA is to revolve the loans to qualifying credit unions as often as practical in order to gain
maximum impact on as many participating credit unions as possible.

2. SIGNIFICANT ACCOUNTING AND OPERATIONAL POLICIES

Basis of Presentation – CDRLF has historically prepared its financial statements in accordance
with accounting principles generally accepted in the United States of America (GAAP), based on
standards issued by the Financial Accounting Standards Board (FASB), the private sector
standards setting body. The Federal Accounting Standards Advisory Board (FASAB) is the
standards setting body for the establishment of GAAP with respect to the financial statements of
Federal Government entities. FASAB has indicated that financial statements prepared based
upon standards promulgated by FASB may also be regarded as in accordance with GAAP for
Federal entities that have issued financial statements based upon FASB standards in the past.

Basis of Accounting – CDRLF reports its financial statements on the accrual basis of accounting
in conformity with GAAP.

Cash Equivalents – The Federal Credit Union Act permits CDRLF to make investments in
United States Government Treasury securities. All investments in 2013 and 2012 were cash



                                                7
equivalents and were stated at cost, which approximates fair value. Cash equivalents are highly
liquid investments with original maturities of three months or less.

Loans Receivable and Allowance for Loan Losses – Prior to May 22, 2012, outstanding
principal was limited to $300,000 per credit union, the maximum loan term was five (5) years,
and interest and principal were to be paid on a semi-annual basis beginning six months and one
year, respectively, after the initial loan disbursement. Per NCUA policy, loans issued after May
22, 2012 carry a fixed rate of 0.4%, and the applicable regulation does not provide a maximum
limit on loan principal. Interest is to be paid on a semi-annual basis beginning six months after
the initial distribution of the loan and every six months thereafter until maturity. Principal is to
be repaid on the maturity date of the loan. The maximum term of each loan remains five years.

Loans are initially recognized at their disbursed amount, and subsequently at amortized cost, net
of the allowance for loan losses, if any.

A provision for loans considered to be uncollectible is charged to the income statement when
such losses are probable and reasonably estimable. Provisions for significant uncollectible
amounts are credited to an allowance for loan losses, while de minimis amounts are directly
charged-off. Management continually evaluates the adequacy of the allowance for loan losses
based upon prevailing circumstances and an assessment of collectability risk of the total loan
portfolio as well as historical loss experience. On the basis of this analysis, no allowance for loan
losses was necessary as of December 31, 2013 and 2012. Accrual of interest is discontinued on
nonperforming loans when management believes collectability is doubtful.

Accrued Technical Assistance Grants – CDRLF issues technical assistance grants to low-
income designated credit unions. CDRLF utilizes multi-year appropriated funds and income
generated from the revolving fund to issue technical assistance grants. Grant income and
expense is recognized when CDRLF makes a formal commitment to the recipient credit union
for technical assistance grants. CDRLF performs a review of long term unspent technical
assistance grant awards (e.g. outstanding awards past the period of eligibility) and then formal
steps are taken to cancel identified technical assistance grants. The cancelled technical
assistance grant funds are credited back to the original appropriated fund from which they are
awarded.

Related Party Transactions – NCUA provides certain general and administrative support to
CDRLF, including office space, salaries, and certain supplies. The value of these contributed
services is not charged to CDRLF.

Revenue Recognition – Appropriation revenue is recognized as the related technical assistance
grant expense is recognized. Total appropriation revenues will differ from total technical
assistance grant expenses because not all technical assistance grants are funded by
appropriations. Interest income on cash and cash equivalents and on loans is recognized when
earned.

Use of Estimates – The preparation of financial statements in conformity with GAAP requires
management to make estimates and assumptions that affect the reported amounts of assets and
liabilities, as well as the disclosure of contingent assets and liabilities, if any, at the date of the


                                                    8
financial statements, and the reported amounts of revenues and expenses during the reporting
period. Actual results could differ from management’s estimates.

Income Taxes – CDRLF is exempt from Federal income taxes under Section 501(c)(1) of the
Internal Revenue Code.

Commitments and Contingencies – Liabilities for loss contingencies arising from claims,
assessments, litigation, fines, and penalties and other sources are recorded when it is probable
that a liability has been incurred and the amount can be reasonably estimated. Legal costs
incurred in connection with loss contingencies are expensed as incurred.

3. CASH AND CASH EQUIVALENTS

CDRLF’s cash and cash equivalents as of December 31, 2013 and 2012 are as follows:

                                                            2013                2012
                  Deposit with U.S. Treasury              $ 3,967,509        $ 2,118,956
                  U.S. Treasury Overnight Securities         9,000,000         10,800,000
                                                          $ 12,967,509       $ 12,918,956


4. GOVERNMENT REGULATIONS

CDRLF is subject to various Federal laws and regulations. Assistance, which includes lending
and technical assistance grants, is limited to the amount appropriated by Congress to date for
CDRLF, which includes accumulated earnings. Federally-chartered and state-chartered credit
unions with a low-income designation are eligible to participate in CDRLF’s loan and technical
assistance grant program.

Since inception, Congress has appropriated $13,387,777 for the revolving loan component of the
program, and this component is governed by Part 705 of NCUA Rules and Regulations.

During the year ended December 31, 2013, CDRLF received appropriations for technical
assistance grants in the amount of $1,247,000 for Federal fiscal years (FY) 2013-2014, of which
$2,494 was rescinded. Of this amount, $782,733 was expended for the year ended December 31,
2013. An additional $220,230 was expended from the FY 2012-2013 appropriation.

During the year ended December 31, 2012, CDRLF received appropriations for technical
assistance grants in the amount of $1,247,000 for Federal FY 2012-2013. Of this amount,
$1,210,016 was expended. An additional $282,856 was expended from the FY 2011-2012
appropriation.

These appropriations were designated to be used for technical assistance grants, and no amounts
were designated to be used as revolving loans. As of December 31, 2013 no appropriated funds
were required to be remitted to the U.S. Treasury for cancelled appropriations.



                                                 9
5. LOANS RECEIVABLE

Receivables consisted of the following as of December 31, 2013 and 2012.

                                                                    2013             2012
Balance as of beginning of year                                $    3,949,022    $    2,756,164
Add: Loans disbursed                                                  570,000         2,999,999
Less: Loan repayments                                                (601,113)       (1,807,009)
Less: Bad Debt Expense                                                      -              (132)

   Loans receivable as of end of year                          $    3,917,909    $    3,949,022

Changes in the allowance for loan losses consisted of
the following:

Balance as of beginning of year                                $            -    $                -
Decrease (increase) in allowance                                            -                     -

   Accounts for loan losses as of end of year                  $            -    $                -

Loans receivable, net as of end of year                        $    3,917,909    $    3,949,022


Loans outstanding as of December 31, 2013, are scheduled to be repaid to CDRLF during the
following years:

                                                        2013

                  2014                           $        408,280
                  2015                                          -
                  2016                                          -
                  2017                                  2,939,630
                  2018                                    569,999
                  Loans Outstanding                     3,917,909
                  Allowance for Loan Losses                     -
                  Total Loans Receivable         $      3,917,909


CDRLF has the intent and ability to hold its loans to maturity. CDRLF anticipates realizing the
carrying amount in full.




                                                10
6. CANCELLED TECHNICAL ASSISTANCE GRANTS

During 2013, CDRLF cancelled $10,643 of technical assistance grants awarded from the
revolving fund and $223,832 of technical assistance grants awarded from multiyear funds.
These amounts were recognized as Cancelled Technical Assistance Grants, decreasing expenses.

Cancelled technical assistance grants from the revolving fund are credited back to accumulated
earnings. Cancelled technical assistance grants from previously expended multiyear funds are
credited back to the original appropriated fund from which they are awarded. As a result, the
$223,832 was also recognized as Cancelled Technical Assistance Grants, decreasing revenue and
resulting in no change to net income.

For the year ended December 31, 2012, CDRLF cancelled $30,753 of technical assistance grants
awarded from the revolving fund and $459,049 of technical assistance grants awarded from
multiyear funds.

Cancelled technical assistance grants awarded from appropriations from FY 2008 through 2012
will be remitted to the U.S. Treasury upon cancellation of the related appropriation.

7. CONCENTRATION OF CREDIT RISK

As discussed in Note 1, CDRLF provides loans to credit unions that serve predominantly
low-income communities.

NCUA Rules and Regulations Section 705.5 permit the classification of the loan in the
participating credit union’s accounting records as a non-member deposit. As a non-member
deposit, $250,000 per credit union is insured by the National Credit Union Share Insurance Fund
(NCUSIF). The aggregate amount of uninsured loans totaled $799,723 and $832,323 as of
December 31, 2013 and 2012, respectively.

8. ESTIMATED FAIR VALUE OF FINANCIAL INSTRUMENTS

The fair value of an instrument is the amount that would be received to sell an asset or would be
paid to transfer a liability in an orderly transaction between market participants by the
measurement date. The following methods and assumptions were used to estimate the fair value
of each class of financial instruments:

Loans Receivable – Fair value is estimated using an income approach by separately discounting
each individual loan’s projected future cash flow. CDRLF believes that the discount rate reflects
the pricing and is commensurate with the risk of the loans to CDRLF. Loans are valued annually
on December 31.

Other – The carrying amounts for cash and cash equivalents, interest receivable, and accrued
technical assistance grants approximate fair value.




                                               11
  The following table presents the carrying value amounts and established fair values of CDRLF’s
  financial instruments as of December 31, 2013 and 2012.


                                                            2013                                            2012
                                       Carrying Amount        Estimated Fair Value      Carrying Amount       Estimated Fair Value

Assets:
 Cash and cash equivalents              $      12,967,509     $          12,968,000      $     12,918,956     $          12,919,000
 Loans receivable                               3,917,909                 3,923,000             3,949,022                 3,954,000
 Interest receivable                                3,882                     4,000                 3,283                     3,000

Liabilities:
 Accrued technical assistance grants             852,010                   852,000              1,230,923                 1,231,000




  9. RELATED PARTY TRANSACTIONS

  NCUA, in supporting the activities of CDRLF, provides for the administration of CDRLF. The
  administrative costs paid by NCUA’s Operating Fund (OF) are directly related to the percentage
  of employee’s time spent on CDRLF. The administrative cost calculation takes into account the
  employees’ salary, benefits, travel, training, and certain “other” costs (e.g., telephone, supplies,
  online applications, printing, and postage).

  For the years ending December 31, 2013 and 2012, NCUA, through the OF, paid the following
  overhead expenses on behalf of CDRLF:


                                                              2013                    2012

                                       Employee             $ 309,918            $ 346,613
                                       Other                   63,829               89,421

                                       Total                $ 373,747            $ 436,034



  10. SUBSEQUENT EVENTS

  Subsequent events have been evaluated through February 10, 2014, which is the date the
  financial statements were available to be issued, and management determined there are no other
  items to be disclosed.




                                                                  12
Report #OIG-14-02
National Credit Union
Administration Central
Liquidity Facility
Financial Statements as of and for the Years Ended
December 31, 2013 and 2012, and
Independent Auditors’ Report
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

TABLE OF CONTENTS


                                                      Page

 INDEPENDENT AUDITORS’ REPORT                            1

 FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2013 AND 2012:

    Balance Sheets                                       3

    Statements of Operations                             4

    Statements of Members’ Equity                        5

    Statements of Cash Flows                             6

    Notes to Financial Statements                       7-12
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                        Independent Auditors’ Report


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

Report on the Financial Statements
We have audited the accompanying financial statements of the National Credit Union Administration
Central Liquidity Facility (CLF), which comprise the balance sheets as of December 31, 2013 and 2012,
and the related statements of operations, members’ equity, and cash flows for the years then ended, and the
related notes to the financial statements.

Management’s Responsibility for the Financial Statements
Management is responsible for the preparation and fair presentation of these financial statements in
accordance with U.S. generally accepted accounting principles; this includes the design, implementation,
and maintenance of internal control relevant to the preparation and fair presentation of financial statements
that are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility
Our responsibility is to express an opinion on these financial statements based on our audits. We conducted
our audits in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 14-02 require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free from material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
financial statements. The procedures selected depend on the auditors’ judgment, including the assessment
of the risks of material misstatement of the financial statements, whether due to fraud or error. In making
those risk assessments, the auditor considers internal control relevant to the entity’s preparation and fair
presentation of the financial statements in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity’s internal
control. Accordingly, we express no such opinion. An audit also includes evaluating the appropriateness of
accounting policies used and the reasonableness of significant accounting estimates made by management,
as well as evaluating the overall presentation of the financial statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.

Opinion on the Financial Statements
In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the National Credit Union Administration Central Liquidity Facility as of
December 31, 2013 and 2012, and its operations, members’ equity, and cash flows for the years then ended
in accordance with U.S. generally accepted accounting principles.

                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Other Reporting Required by Government Auditing Standards
Internal Control over Financial Reporting
In planning and performing our audit of the financial statements, we considered the CLF’s internal control
over financial reporting (internal control) to determine the audit procedures that are appropriate in the
circumstances for the purpose of expressing our opinion on the financial statements, but not for the purpose
of expressing an opinion on the effectiveness of the CLF’s internal control. Accordingly, we do not express
an opinion on the effectiveness of the CLF’s internal control. We did not test all internal controls relevant
to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses or significant deficiencies. Given these limitations, during our audit we did not identify any
deficiencies in internal control that we consider to be material weaknesses. However, material weaknesses
may exist that have not been identified.

Compliance and Other Matters
As part of obtaining reasonable assurance about whether the CLF’s financial statements are free from
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
contracts, and grant agreements, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 14-02. However, providing an opinion on compliance with those provisions
was not an objective of our audit, and accordingly, we do not express such an opinion. The results of our
tests of compliance disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards or OMB Bulletin No. 14-02.

Purpose of the Other Reporting Required by Government Auditing Standards
The purpose of the communication described in the Other Reporting Required by Government Auditing
Standards section is solely to describe the scope of our testing of internal control and compliance and the
result of that testing, and not to provide an opinion on the effectiveness of the CLF’s internal control or
compliance. Accordingly, this communication is not suitable for any other purpose.




February 12, 2014




                                                   2
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

BALANCE SHEETS
AS OF DECEMBER 31, 2013 AND 2012
(DOLLARS IN THOUSANDS, EXCEPT SHARE DATA)

                                                           2013                 2012
ASSETS

Cash and Cash Equivalents (Notes 3 and 5)          $               30,442   $           39,168
Investments Held to Maturity
   (Net of $734 and $1,035 unamortized premium,
   fair value of $106,511 and $73,055 as of 2013
   and 2012, respectively) (Notes 4 and 5)                        108,306               72,107
Accrued Interest Receivable (Note 5)                                 313                  196

TOTAL                                              $              139,061   $          111,471



LIABILITIES AND MEMBERS' EQUITY

LIABILITIES
  Accounts Payable (Note 5)                        $                   88   $               76
  Other Liabilities (Notes 5 and 6)                                 3,123                3,224
  Dividends Payable (Note 5)                                           26                   19
  Member Deposits (Notes 5 and 8)                                     252                  299

     TOTAL LIABILITIES                                              3,489                3,618

MEMBERS' EQUITY
 Capital Stock – Required ($50 per share par
 value authorized: 4,315,214 and 3,223,232
 shares; issued and outstanding: 2,157,607 and
 1,611,616 shares as of 2013 and 2012,
 respectively) (Notes 6 and 7)                                    107,880               80,581
 Retained Earnings                                                 27,692               27,272


     TOTAL MEMBERS' EQUITY                                        135,572              107,853

TOTAL                                              $              139,061   $          111,471


See accompanying notes to financial statements.




                                                       3
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2013 AND 2012
(DOLLARS IN THOUSANDS)

                                                          2013             2012


REVENUE
 Investment Income                                $              918   $          1,661

      Total Revenue                                              918              1,661

EXPENSES (Note 10)
 Personnel Services                                              284               417
 Personnel Benefits                                              59                107
 Other General and Administrative Expenses                       60                 57

      Total Operating Expenses                                   403               581

 Interest – Liquidity Reserve                                      -                  -

      Total Expenses                                             403               581

NET INCOME                                        $              515   $          1,080



See accompanying notes to financial statements.




                                                      4
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF MEMBERS’ EQUITY
FOR THE YEARS ENDED DECEMBER 31, 2013 AND 2012
(DOLLARS IN THOUSANDS, EXCEPT SHARE DATA)


                                                            Capital Stock
                                                                                           Retained
                                                  S hares                   Amount         Earnings         Total


BALANCE – December 31, 2011                        41,201,610        $        2,060,081    $   26,360   $     2,086,441

 Issuance of Required Capital Stock                   447,305                    22,365                         22,365

 Redemption of Required Capital Stock
   (Note 6)                                       (40,037,299)               (2,001,865)                    (2,001,865)

 Dividends Declared ($0.01/share) (Notes
                                                                                                (168)               (168)
  7 and 8)


 Net Income                                                                                     1,080               1,080


BALANCE – December 31, 2012                         1,611,616                    80,581        27,272          107,853

 Issuance of Required Capital Stock                   557,295                    27,864                         27,864

 Redemption of Required Capital Stock                 (11,304)                    (565)                             (565)
   (Note 6)


 Dividends Declared ($0.05/share) (Notes
                                                                                                 (95)                (95)
   7 and 8)


 Net Income                                                                                      515                 515

BALANCE – December 31, 2013                         2,157,607        $          107,880    $   27,692   $      135,572


See accompanying notes to financial statements.




                                                                 5
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY
STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2013 AND 2012
(DOLLARS IN THOUSANDS)

                                                                 2013                 2012

CASH FLOWS FROM OPERATING ACTIVITIES:
 Net Income                                                  $             515    $           1,080
 Adjustments to Reconcile Net Income
 to Net Cash Provided by Operating Activities:
    Amortization of Investments                                            157                  376
    (Increase)/Decrease in Accrued Interest Receivable                   (117)                 (51)
    Increase/(Decrease) in Accounts Payable                                 12                (143)
    Increase/(Decrease) in Other Liabilities                             (101)                (272)

      Net Cash Provided by Operating Activities                            466                 990

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchase of Investments                                            (37,356)           (1,962,123)
 Proceeds from Maturing Investments                                    1,000             1,999,511

      Net Cash Provided by/(Used in) Investing Activities           (36,356)                 37,388

CASH FLOWS FROM FINANCING ACTIVITIES:
 Issuance of Required Capital Stock                                     27,777              22,333
 Dividends Paid (Notes 7 and 8)                                           (40)               (505)
 Redemption of Required Capital Stock                                    (562)         (2,010,649)
 Withdrawal of Member Deposits                                            (11)                (30)

      Net Cash Provided by/(Used in) Financing Activities               27,164         (1,988,851)

NET INCREASE/(DECREASE) IN CASH AND CASH EQUIVALENTS
                                                                        (8,726)        (1,950,473)


CASH AND CASH EQUIVALENTS– Beginning of Year                            39,168          1,989,641

CASH AND CASH EQUIVALENTS – End of Year                      $          30,442    $          39,168

SUPPLEMENTAL DISCLOSURE OF CASH FLOW
 INFORMATION – Cash Paid During the Year for Interest        $                -   $               -


See accompanying notes to financial statements.




                                                         6
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2013 AND 2012


1. ORGANIZATION AND PURPOSE

The National Credit Union Administration (NCUA) Central Liquidity Facility (CLF) was created
by the National Credit Union Central Liquidity Facility Act (the “Act”). CLF is designated as a
mixed-ownership Government corporation under the Government Corporation Control Act. CLF
exists within NCUA and is managed by the NCUA Board. CLF became operational on
October 1, 1979.
CLF was created to improve the general financial stability of credit unions by serving as a
liquidity lender to credit unions experiencing unusual or unexpected liquidity shortfalls. CLF
accomplishes its purpose by lending funds, subject to certain statutory limitations, when a
liquidity need arises.
CLF is subject to various Federal laws and regulations. CLF’s operating budget requires
Congressional approval, and CLF may not make loans to members for the purpose of expanding
credit union loan portfolios. CLF’s investments are restricted to obligations of the U.S.
Government and its agencies, deposits in federally insured financial institutions, and shares and
deposits in credit unions. Borrowing is limited by statute to 12 times the subscribed capital stock
and surplus. See Notes 7 and 9 for further information about the capital stock and the CLF's
borrowing authority.


2. SIGNIFICANT ACCOUNTING POLICIES

Basis of Presentation – CLF has historically prepared its financial statements in accordance
with accounting principles generally accepted in the United States of America (GAAP), based on
standards issued by the Financial Accounting Standards Board (FASB), the private-sector
standards-setting body. The Federal Accounting Standards Advisory Board (FASAB) is the
standards-setting body for the establishment of GAAP with respect to the financial statements of
Federal Government entities. FASAB has indicated that financial statements prepared based
upon standards promulgated by FASB may also be regarded as in accordance with GAAP for
those Federal entities, such as CLF, that have issued financial statements based upon FASB
standards in the past.
Basis of Accounting – CLF maintains its accounting records on the accrual basis of accounting.
CLF recognizes interest income on loans and investments when they are earned, and recognizes
interest expense on borrowings when it is incurred. CLF recognizes expenses when incurred.
CLF accrues and records dividends on capital stock monthly and pays dividends quarterly.
Use of Estimates – The preparation of financial statements in conformity with GAAP requires
management to make estimates and assumptions that affect the reported amounts of assets,
liabilities, and disclosures of contingent assets and liabilities at the date of the financial

                                                 7
statements, and the reported amounts of revenues and expenses during the reporting period.
Actual results could differ from management’s estimates.
Cash and Cash Equivalents – CLF considers all highly liquid investments with a maturity of
three months or less when purchased to be cash equivalents.
Investments – By statute, CLF investments are restricted to obligations of the U.S. Government
and its agencies, deposits in federally insured financial institutions, and shares and deposits in
credit unions. All investments are classified as held-to-maturity under FASB Accounting
Standards Codification (ASC) topic 320-10-25-1, Classification of Investment Securities, as CLF
has the intent and ability to hold these investments until maturity. Accordingly, CLF reports
investments at amortized cost. Amortized cost is the face value of the securities plus the
unamortized premium or less the unamortized discount.
Premiums and discounts are amortized or accreted over the life of the related held-to-maturity
investment as an adjustment to yield using the effective interest method. Such amortization and
accretion is included in the “investment income” line item in the Statement of Operations.
CLF records investment transactions when they are made.
Loans and Allowance for Loan Losses – Loans, when made to members, are on a short-term or
long-term basis. Loans are recorded at the amount disbursed and bear interest at the higher of the
Federal Financing Bank Advance Rate or the Federal Reserve Bank Discount Window Primary
Credit Rate. By regulation, Member Liquidity Needs Loans are made on a fully secured basis.
CLF obtains a security interest in the assets of the member equal to at least 110% of all amounts
due. CLF does not currently charge additional fees for its lending activities. There was no
lending activity during 2013 and 2012.
Borrowings – CLF’s borrowings are recorded when they are received, do not hold premiums or
discounts, and are carried at cost. Repayments are recorded when they are made.
Tax-Exempt Status – CLF is exempt from Federal income taxes under Section 501(c)(1) of the
Internal Revenue Code.
Commitments and Contingencies – Liabilities for loss contingencies arising from claims,
assessments, litigation, fines, and penalties and other sources are recorded when it is probable
that a liability has been incurred and the amount can be reasonably estimated. Legal costs
incurred in connection with loss contingencies are expensed as incurred.
Related Parties – CLF exists within NCUA and is managed by the NCUA Board. NCUA
Operating Fund (OF) provides CLF with information technology, support services, and supplies.
In addition, NCUA OF pays CLF’s employees’ salaries and benefits, as well as CLF’s portion of
monthly building operating costs. The allocation formula to calculate these expenses is based on
the number of full-time employees of the respective entities and the estimated amount of time
CLF employees spend performing CLF functions.




                                                 8
3. CASH AND CASH EQUIVALENTS

CLF’s cash and cash equivalents consisted of the following:
                                                               As of                 As of
                                                            December 31,          December 31,
                                                                2013                  2012
    (Dollars in thousands)

    U.S. Treasury Securities                                $        27,343       $           39,157
    Sun Trust Bank                                                    3,099                       11

    Total                                                   $        30,442       $           39,168


U.S. Treasury securities had an initial term of less than three months when purchased.


4. INVESTMENTS

The carrying amount, gross unrealized holding gains, gross unrealized losses, and the fair value
of held-to-maturity debt securities as of December 31, 2013 and 2012 were as follows:
                                                                                Gross
                                                            Gross             Unrealized
                                       Carrying          Unrealized            Holding
    (Dollars in thousands)             Amount           Holding Gains          Losses              Fair Value
    As of December 31, 2013
    U.S. Treasury Securities       $      108,306       $           508       $ (2,303)           $    106,511


    As of December 31, 2012
    U.S. Treasury Securities       $       72,107       $           994       $        (46)       $     73,055


Maturities of debt securities classified as held-to-maturity were as follows:

                                            As of December 31, 2013                As of December 31, 2012
                                           Net Carrying         Aggregate         Net Carrying         Aggregate
                                             Amount             Fair Value          Amount             Fair Value
(Dollars in thousands)
Due in one year or less                     $       8,005       $     8,051        $             999   $     1,002
Due after one year through five years              69,729            69,342                   42,890        43,221
Due after five years through ten years             30,572            29,118                   28,218        28,832
      Total                                 $     108,306       $   106,511        $          72,107   $    73,055




                                                    9
5. FAIR VALUE MEASUREMENTS

The fair value of an instrument is the amount that would be received to sell an asset or would be
paid to transfer a liability in an orderly transaction between market participants by the
measurement date. The following methods and assumptions were used to estimate the fair value
of each class of financial instruments:

Cash and cash equivalents– The carrying amounts for cash and cash equivalents approximate
fair value.

Investments held-to-maturity – CLF’s investments held-to-maturity are all comprised of U.S.
Treasury Securities, for which a share price can be readily obtained. The fair value for
investments is determined using the quoted market prices at the reporting date (observable
inputs).

Member Deposits – Funds maintained with CLF in excess of required capital amounts are
recorded as member deposits. These deposits are due upon demand; therefore, carrying amounts
approximate the fair value.

Other – Accrued interest receivable, accounts payable, other liabilities, and dividends payable
are recorded at book values, which approximate the respective fair values because of the short
maturity of these instruments.

The following table presents the carrying amounts and established fair values of CLF’s financial
instruments as of December 31, 2013 and 2012. The carrying values and approximate fair values
of financial instruments are as follows:

                                       As of December 31, 2013   As of December 31, 2012
        Financial Instruments            Carrying       Fair       Carrying      Fair
        (Dollars in thousands)             Value       Value         Value       Value

        Cash and cash equivalents      $     30,442   $ 30,442    $     39,168   $ 39,168
        Investments held-to-maturity        108,306   106,511           72,107     73,055
        Accrued interest receivable             313        313             196        196
        Accounts payable                         88         88              76         76
        Other liabilities                     3,123      3,123           3,224      3,224
        Dividends payable                        26         26              19         19
        Member deposits                         252        252             299        299


6. OTHER LIABILITIES

Other liabilities in 2013 include $3.1 million in advance deposits from credit unions that will
become members in 2014. In 2012, CLF reclassified $3.2 million of capital stock to other
liabilities to reflect the pending redemption of 64,487 shares of required capital stock at the
request of a regular (non-agent) member credit union. This redemption occurred in 2013.
Dividends were paid on these shares until they were redeemed.


                                                 10
7. CAPITAL STOCK

Membership in CLF is open to all credit unions that purchase a prescribed amount of capital
stock. CLF capital stock is non-voting and shares have a par value of $50. Currently, there is
one type of membership—regular members which are natural person credit unions. Natural
person credit unions may borrow from CLF directly as a regular member.
In October 2013, the NCUA Board issued a final rule 12 CFR Part 741, § 741.12 “Liquidity and
Contingency Funding Plans,” which requires federally insured credit unions with assets of $250
million or more to have access to a backup liquidity source for emergency situations. A credit
union subject to this requirement may demonstrate access to a contingent federal liquidity source
by maintaining membership in the Central Liquidity Facility, or establishing borrowing access at
the Federal Reserve Discount Window.
The capital stock account represents subscriptions remitted to CLF by member credit unions.
Regular members’ required subscription amounts equal one-half of one percent of their paid-in
and unimpaired capital and surplus, one-half of which is required to be remitted to CLF.
Member credit unions are required to hold the remaining one-half in assets subject to call by the
NCUA Board. These unremitted subscriptions are not reflected in CLF’s financial statements.
Subscriptions are adjusted annually to reflect changes in the member credit unions’ paid-in and
unimpaired capital and surplus. Dividends are non-cumulative, and are declared and paid on
required capital stock.
A member of CLF whose capital stock account constitutes less than 5% of the total capital stock
outstanding may withdraw from membership in CLF six months after notifying the NCUA
Board of its intention. A member whose capital stock account constitutes 5% or more of the
total capital stock outstanding may withdraw from membership in CLF two years after notifying
the NCUA Board of its intention. As of December 31, 2013, CLF had no member withdrawal
requests pending. As of December 31, 2012, CLF had one member withdrawal request pending.
The required capital stock is redeemable upon demand by the members, subject to certain
conditions as set out in the Act and NCUA regulations; however, the stock is not deemed
“mandatorily redeemable” as defined in FASB ASC 480-10-25-7, Mandatorily Redeemable
Financial Instruments; therefore capital stock is classified in permanent equity.
CLF’s capital stock accounts were composed of the following as of December 31, 2013 and
2012:

                                As of December 31, 2013           As of December 31, 2012
    (Dollars in thousands,
                                 Shares         Amount             Shares         Amount
    except share data)

    Regular members             2,157,607      $ 107,880          1,611,616      $ 80,581



Dividends on capital stock are declared based on available earnings and the dividend policy set
by the NCUA Board. Dividends are accrued monthly based on prior quarter-end balances and

                                                11
paid on the first business day after the quarter-end. The dividend rates paid on capital stock for
regular members change quarterly.


8. MEMBER DEPOSITS

Member deposits represent amounts remitted by members over and above the amount required
for membership. Interest is paid on member deposits at a rate equivalent to the dividend rate paid
on required capital stock.


9. BORROWING AUTHORITY

CLF is authorized by statute to borrow, from any source, an amount not to exceed 12 times its
subscribed capital stock and surplus. As of December 31, 2013 and 2012, CLF’s statutory
borrowing authority was $2.9 billion and $2.3 billion, respectively.
As described above, the borrowing authority amounts are referenced to subscribed capital stock
and surplus of the CLF. The CLF borrowing arrangement is exclusively with the Federal
Financing Bank (FFB). NCUA maintains a note purchase agreement with FFB on behalf of CLF
with a maximum principal amount of $2.0 billion. Under the terms of its agreement, CLF
borrows from FFB as needed. Under terms prescribed by the note purchase agreement, CLF
executes promissory notes in amounts as necessary and renews them annually. Advances made
under the current promissory note can be made no later than March 31, 2014.


10. RELATED PARTY TRANSACTIONS

NCUA OF pays the salaries and related benefits of CLF’s employees, CLF’s building and
operating costs. Expenses are allocated by applying the ratio of CLF full-time equivalent
employees to the NCUA total. These expenses are reimbursed to NCUA OF quarterly. All other
CLF reimbursement expenses are paid annually. The total amount charged by NCUA was
approximately $409.8 thousand and $553.0 thousand, respectively, for December 31, 2013 and
2012. Accounts payable includes approximately $30.9 thousand and $0, respectively, for
December 31, 2013 and 2012, due to NCUA OF for services provided.


11. SUBSEQUENT EVENTS

Management evaluated all events and transactions that occurred after December 31, 2013
through February 12, 2014, which is the date the CLF issued these financial statements.
CLF added fifteen new credit union members that purchased $15.5 million in capital stock. Of
this amount, $3.1 million in advance deposits was received as of December 31, 2013 (Note 6).
In addition, CLF received notice from two members, with capital stock valued at $109.1
thousand, of their intent to withdraw from CLF membership.




                                                12
Report #OIG-14-03
National Credit Union Administration
Operating Fund
Financial Statements as of and for the Years Ended
December 31, 2013 and 2012, and
Independent Auditor’s Report
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

Table of Contents


                                                                 Page
INDEPENDENT AUDITOR’S REPORT

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2013 and 2012

 Balance Sheets                                                    3

 Statements of Revenues, Expenses, and Changes in Fund Balance     4

 Statements of Cash Flows                                          5

 Notes to the Financial Statements                               6-16
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                        Independent Auditors’ Report


Inspector General, National Credit Union Administration and
  the Board of Directors, National Credit Union Administration:

Report on the Financial Statements
We have audited the accompanying financial statements of the National Credit Union Administration
Operating Fund (OF), which comprise the balance sheets as of December 31, 2013 and 2012, and the
related statements of revenues, expenses and changes in fund balance, and cash flows for the years then
ended, and the related notes to the financial statements.

Management’s Responsibility for the Financial Statements
Management is responsible for the preparation and fair presentation of these financial statements in
accordance with U.S. generally accepted accounting principles; this includes the design, implementation,
and maintenance of internal control relevant to the preparation and fair presentation of financial statements
that are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility
Our responsibility is to express an opinion on these financial statements based on our audits. We conducted
our audits in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 14-02 require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free from material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
financial statements. The procedures selected depend on the auditors’ judgment, including the assessment
of the risks of material misstatement of the financial statements, whether due to fraud or error. In making
those risk assessments, the auditor considers internal control relevant to the entity’s preparation and fair
presentation of the financial statements in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity’s internal
control. Accordingly, we express no such opinion. An audit also includes evaluating the appropriateness of
accounting policies used and the reasonableness of significant accounting estimates made by management,
as well as evaluating the overall presentation of the financial statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.

Opinion on the Financial Statements
In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the National Credit Union Administration Operating Fund as of December 31, 2013
and 2012, and the results of its operations, changes in fund balance, and cash flows for the years then
ended in accordance with U.S. generally accepted accounting principles.

                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Other Reporting Required by Government Auditing Standards
Internal Control over Financial Reporting
In planning and performing our audit of the financial statements, we considered the OF’s internal control
over financial reporting (internal control) to determine the audit procedures that are appropriate in the
circumstances for the purpose of expressing our opinion on the financial statements, but not for the purpose
of expressing an opinion on the effectiveness of the OF’s internal control. Accordingly, we do not express
an opinion on the effectiveness of the OF’s internal control.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses or significant deficiencies. Given these limitations, during our audit we did not identify any
deficiencies in internal control that we consider to be material weaknesses. However, material weaknesses
may exist that have not been identified.

Compliance and Other Matters
As part of obtaining reasonable assurance about whether the OF’s financial statements are free from
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
and contracts, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts, and certain provisions of other laws and regulations specified in OMB
Bulletin No. 14-02. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion. The results of our tests of
compliance disclosed no instances of noncompliance or other matters that are required to be reported
herein under Government Auditing Standards or OMB Bulletin No. 14-02.

Purpose of the Other Reporting Required by Government Auditing Standards
The purpose of the communication described in the Other Reporting Required by Government Auditing
Standards section is solely to describe the scope of our testing of internal control and compliance and the
result of that testing, and not to provide an opinion on the effectiveness of the OF’s internal control or
compliance. Accordingly, this communication is not suitable for any other purpose.




February 13, 2014




                                                   2
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

BALANCE SHEETS
AS OF DECEMBER 31, 2013 AND 2012
(Dollars in thousands)

                                                                                 2013             2012
ASSETS:

CASH AND CASH EQUIVALENTS (Note 3)                                           $     37,913     $     36,521

DUE FROM NATIONAL CREDIT UNION SHARE INSURANCE
 FUND (Note 7)                                                                      3,313            2,040

EMPLOYEE ADVANCES                                                                        38               25

OTHER ACCOUNTS RECEIVABLE, Net (Notes 7 and 10)                                         203              211

PREPAID EXPENSES AND OTHER ASSETS                                                   1,378            1,055

ASSETS HELD FOR SALE (Note 6)                                                             -              854

FIXED ASSETS — Net of accumulated depreciation of $29,121 and $27,208
  as of December 31, 2013 and December 31, 2012, respectively (Note 4)             30,215           31,464

INTANGIBLE ASSETS — Net of accumulated amortization of $13,134 and $10,772
  as of December 31, 2013 and December 31, 2012, respectively (Note 5)              4,263            5,232

TOTAL                                                                        $     77,323     $     77,402


LIABILITIES AND FUND BALANCE:

LIABILITIES:
 Accounts payable and accrued other liabilities                              $      4,718     $      4,604
 Obligations under capital leases (Note 8)                                             59               78
 Accrued wages and benefits                                                        11,356           10,178
 Accrued annual leave                                                              14,571           13,832
 Accrued employee travel                                                            1,068              695
 Notes payable to National Credit Union Share Insurance Fund (Note 7)              13,074           14,415

      Total liabilities                                                            44,846           43,802

COMMITMENTS AND CONTINGENCIES (Notes 7, 8, 11 & 12)

FUND BALANCE                                                                       32,477           33,600


TOTAL                                                                        $     77,323     $     77,402

See accompanying notes to financial statements.


                                                                  3
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF REVENUES, EXPENSES, AND CHANGES IN FUND BALANCE
FOR THE YEARS ENDED DECEMBER 31, 2013 AND 2012
(Dollars in thousands)

                                                          2013             2012

REVENUES:
 Operating fees                                       $     93,112     $     88,798
 Interest                                                       28               47
 Other                                                       1,346            1,280


      Total revenues                                        94,486           90,125

EXPENSES, NET (Note 7):
 Employee wages and benefits                                69,797           66,509
 Travel                                                     10,520            9,946
 Rent, communications, and utilities                         1,990            1,949
 Contracted services                                         8,518            7,123
 Depreciation and amortization                               5,418            6,289
 Administrative                                               (634)          (1,170)

      Total expenses                                        95,609           90,646


EXCESS OF REVENUES OVER (UNDER)
EXPENSES                                                     (1,123)              (521)

FUND BALANCE—Beginning of year                              33,600           34,121

FUND BALANCE—End of year                              $     32,477     $     33,600

See accompanying notes to financial statements.




                                                  4
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2013 AND 2012
(Dollars in thousands)
                                                                                            2013           2012
CASH FLOWS FROM OPERATING ACTIVITIES:
Excess of revenues over (under) expenses                                                $   (1,123)    $     (521)
Adjustments to reconcile excess of revenues over expenses to net cash provided by
operating activities:
  Depreciation and amortization                                                              5,418          6,289
  Provision for loss on disposal of employee residences held for sale                           27            186
  Loss on fixed asset and intangible asset retirements                                          17            107
  (Increase) decrease in assets:
    Due from National Credit Union Share Insurance Fund                                     (1,273)          (858)
    Employee advances                                                                          (13)            18
    Other accounts receivable, net                                                               8            674
   Prepaid expenses and other assets                                                          (323)           (40)
  (Decrease) increase in liabilities:
   Accounts payable                                                                           (500)        (2,470)
   Accrued wages and benefits                                                                1,178            883
   Accrued annual leave                                                                        739          1,133
    Accrued employee travel                                                                    373             67

      Net cash provided by operating activities                                              4,528          5,468

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchases of fixed assets and intangible assets                                            (2,603)        (3,950)
 Proceeds from sale of employee residences held for sale                                       827            658
 Proceeds from insurance on fixed assets                                                         -             25
 Purchases of employee residences held for sale                                                  -         (1,301)
      Net cash used in investing activities                                                 (1,776)        (4,568)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Repayments of notes payable to National Credit Union Share Insurance Fund                  (1,341)        (1,341)
 Principal payments under capital lease obligations                                            (19)           (20)

      Net cash used in financing activities                                                 (1,360)        (1,361)

NET INCREASE / (DECREASE) IN CASH AND CASH EQUIVALENTS                                       1,392           (461)
CASH AND CASH EQUIVALENTS—Beginning of year                                                 36,521         36,982

CASH AND CASH EQUIVALENTS—End of year                                                   $   37,913     $   36,521

SUPPLEMENTAL DISCLOSURE OF NONCASH ACTIVITIES -
 Acquisition of equipment under capital lease                                       $              -   $      40

CASH PAYMENTS FOR INTEREST                                                              $     249      $     290
See accompanying notes to financial statements.




                                                                5
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2013 AND 2012

1.      ORGANIZATION AND PURPOSE

The National Credit Union Administration Operating Fund (the “Fund”) was created by the
Federal Credit Union Act of 1934. The Fund was established as a revolving fund in the United
States Treasury under the management of the National Credit Union Administration (NCUA)
Board for the purpose of providing administration and service to the Federal credit union system.

A significant majority of the Fund’s revenue is comprised of operating fees paid by Federal
credit unions. Each Federal credit union is required to pay this fee based on its prior year asset
balances and rates set by the NCUA Board.

2.      SIGNIFICANT ACCOUNTING POLICIES

Basis of Presentation – The Fund has historically prepared its financial statements in
accordance with accounting principles generally accepted in the United States of America
(GAAP), based on standards issued by the Financial Accounting Standards Board (FASB), the
private sector standards setting body. The Federal Accounting Standards Advisory Board
(FASAB) is the standards setting body for the establishment of GAAP with respect to the
financial statements of Federal Government entities. FASAB has indicated that financial
statements prepared based upon standards promulgated by FASB may also be regarded as in
accordance with GAAP for Federal entities that have issued financial statements based upon
FASB standards in the past.

Basis of Accounting – The Fund maintains its accounting records in accordance with the accrual
basis of accounting. As such, the Fund recognizes income when earned and expenses when
incurred. In addition, the Fund records investment transactions when they are executed and
recognizes interest on investments when it is earned.

Related Parties – The Fund exists within NCUA and is one of five funds managed by the
NCUA Board. The other funds managed by the Board, deemed related parties, are:

     a) The National Credit Union Share Insurance Fund (NCUSIF),
     b) The National Credit Union Administration Temporary Corporate Credit Union
        Stabilization Fund (TCCUSF),
     c) The National Credit Union Administration Central Liquidity Facility (CLF), and
     d) The National Credit Union Administration Community Development Revolving Loan
        Fund (CDRLF).

The Fund supports these related parties by providing office space, information technology
services, and supplies, as well as paying employees’ salaries and benefits. Certain types of

                                                 6
support are reimbursed to the Fund by NCUSIF, TCCUSF, and CLF, while support of the
CDRLF is not reimbursed as described in Note 7.

Cash Equivalents – Cash equivalents are highly liquid investments with original maturities of
three months or less. The Federal Credit Union Act permits the Fund to invest in United States
Government securities or securities with both principal and interest guaranteed by the United
States Government. All investments in 2013 and 2012 were cash equivalents and are stated at
cost, which approximates fair value.

Fixed and Intangible Assets – Buildings, furniture, equipment, computer software, and
leasehold improvements are recorded at cost. Computer software includes the cost of labor
incurred by both external and internal programmers and other personnel in the development of
the software. Capital leases are recorded at the present value of the future minimum lease
payments. Depreciation and amortization are computed by the straight-line method over the
estimated useful lives of buildings, furniture, equipment, and computer software, and the shorter
of either the estimated useful life or lease term for leasehold improvements and capital leases.
Estimated useful lives are 40 years for the building and two to ten years for the furniture,
equipment, computer software, and leasehold improvements.

Long-lived Assets/Impairments – Fixed and intangible assets, subject to amortization, are
reviewed for impairment whenever events or changes in circumstances indicate that the carrying
amount of an asset may not be recoverable. If the carrying value of the long-lived asset or asset
group is not recoverable, an impairment is recognized to the extent that the carrying value
exceeds its fair value. Fair value is determined through various valuation techniques, including
discounted cash flow models, quoted market values, and third party independent appraisals, as
considered necessary.

For impairments, the Fund’s policy is to identify assets that are no longer in service, obsolete, or
need to be written down, and perform an impairment analysis based on FASB Accounting
Standards Codification (ASC) 360-10-35, Property, Plant, and Equipment, requirements.
Subsequent adjustment to individual asset values are made to correspond with any identified
changes in useful lives.

Assets Held for Sale – The Fund may hold certain real estate held for sale. Such held for sale
assets are ready for immediate sale in their present condition. Real estate held for sale is
recorded at the fair value less cost to sell. If an asset’s fair value less cost to sell—based on a
review of available financial information including but not limited to appraisals, markets
analyses, etc. — is less than its carrying amount, the carrying value of the asset is adjusted to its
fair value less costs to sell.

Gains on disposition of real estate are recognized upon sale of the underlying asset. The Fund
evaluates each real estate transaction to determine if it qualifies for gain recognition under the
full accrual method. If the transaction does not meet the criteria for the full accrual method, the
appropriate deferral method is used.




                                                  7
Accounts Receivable – Receivables include employee advances, amounts due from the
NCUSIF, and other accounts receivable.

Accounts Payable and Accrued Other Liabilities – The Fund incurs administrative expenses
and liabilities for programs pertaining to related parties that are controlled by the NCUA Board.
Accruals are made as expenses are incurred. Accrued other liabilities include contingent
liabilities, as described in Note 11.

Accrued Benefits – The Fund incurs expenses for retirement plans, employment taxes, workers
compensation, transportation subsidies, and other benefits mandated by law. Corresponding
liabilities recorded contain both short-term and long-term liabilities, including liabilities under
the Federal Employees’ Compensation Act (FECA). This Act provides income and medical cost
protection to covered Federal civilian employees injured on the job, employees who have
incurred a work-related occupational disease, and beneficiaries of employees whose death is
attributable to a job-related injury or occupational disease.

Operating Fees – Each federally chartered credit union is assessed an annual fee based on their
assets as of the preceding 31st day of December. The fee is designed to cover the costs of
providing administration and service to the Federal credit union system. The Fund recognizes
this operating fee revenue ratably over the calendar year.

Revenue Recognition – Interest revenue and other revenue relating to Freedom of Information
Act fees, sales of publications, parking income, and rental income is recognized when earned.

Income Taxes – The Fund is exempt from Federal income taxes under Section 501(c)(1) of the
Internal Revenue Code.

Leases – Operating leases are entered into for the acquisition of office space and equipment as
part of administering NCUA’s program. The cost of operating leases is recognized on the
straight-line method over the life of the lease and includes, if applicable, any reductions resulting
from incentives such as rent holidays. The same method is used to recognize income from
operating leases. Certain office space for which NCUA is a lessee is subject to escalations in
rent, as described in Note 8.

Fair Value of Financial Instruments – The following method and assumption was used in
estimating the fair value disclosures for financial instruments:

Cash and cash equivalents, receivables from related parties, employee advances, other accounts
receivable (net), obligations under capital leases, and notes payable to NCUSIF are recorded at
book values, which approximate their respective fair values.

Use of Estimates – The preparation of financial statements in conformity with GAAP requires
management to make estimates and assumptions that affect the reported amounts of assets and
liabilities, disclosure of contingent liabilities at the date of the financial statements, and the
reported amounts of revenues and expenses incurred during the reporting period. Significant
estimates include the determination of the FECA liability, certain intangible asset values, and if


                                                  8
there is any determination of a long-lived asset impairment, the related measurement of the
impairment charges.

Commitments and Contingencies – Liabilities for loss contingencies arising from claims,
assessments, litigation, fines and penalties, and other sources are recorded when it is probable
that a liability has been incurred and the amount can be reasonably estimated. Legal costs
incurred in connection with loss contingencies are expensed as incurred.

3.     CASH AND CASH EQUIVALENTS

The Fund’s cash and cash equivalents as of December 31, 2013 and 2012 are as follows (in
thousands):

                                                            2013                  2012
      Deposits with U.S. Treasury                                 $504                 $435
      U.S. Treasury Overnight Investments                       37,409               36,086
      Total                                                    $37,913              $36,521

As a revolving fund within the U.S. Treasury, the Operating Fund does not hold any cash or cash
equivalents outside of Treasury.

4.     FIXED ASSETS

Fixed assets, including furniture and equipment, are comprised of the following as of December
31, 2013 and 2012 (in thousands):

                                                            2013                  2012
      Office building and land                                 $48,115               $47,899
      Furniture and equipment                                   10,713                10,265
      Leasehold improvements                                       406                   406
      Equipment under capital leases                               102                   102
        Total                                                   59,336                58,672
      Less accumulated depreciation                           (29,121)              (27,208)
      Fixed assets, net                                        $30,215               $31,464

Depreciation expense for the years ended December 31, 2013 and 2012 totaled $2.7 and $2.4
million, respectively.




                                                 9
5.     INTANGIBLE ASSETS

Intangible assets are comprised of the following as of December 31, 2013 and 2012 (in
thousands):

                                                           2013                  2012
      Internal-use software                                   $16,945               $15,823
      Less accumulated amortization                          (13,134)              (10,772)
         Total                                                  3,811                 5,051
      Internal-use software under development                     452                   181
      Intangible assets, net                                   $4,263                $5,232

Internal-use software is computer software that is either acquired externally or developed
internally. Amortization expense for the years ended December 31, 2013 and 2012 totaled $2.7
and $3.9 million, respectively.

Internal-use software that is in development represents costs incurred from the customization of
software purchased from external vendors for internal use as well as the cost of software that is
developed in-house.

6.     ASSETS HELD FOR SALE

The balance of real estate available for sale as of December 31, 2013 and 2012 was $0 and
$854.0 thousand, respectively, net of impairment charges and costs to sell of $0 and $120.0
thousand as of December 31, 2013 and 2012, respectively. Real estate available for sale
purchased by the Fund is from employees enrolled in the agency’s home purchase program who
are unable to sell their homes in a specified time period. It is the agency’s intent to dispose of
these properties as quickly as possible. Sales of homes are generally expected to occur within
one year, pending market forces. Ongoing costs to maintain properties are expensed as incurred.

7.     RELATED PARTY TRANSACTIONS

(a) Transactions with NCUSIF

Certain administrative services are provided by the Fund to NCUSIF. The Fund charges
NCUSIF for these services based upon an annual allocation factor approved by the NCUA Board
and derived from a study of actual usage. The allocation to NCUSIF was 100% of the expenses
of the Office of National Examinations and Supervision (Office of Corporate Credit Unions) to
the extent that they exceed the actual operating fees paid by Federal corporate credit unions, plus
59.1% of all other expenses for 2013 and 59.3% for 2012. The cost of the services allocated to
NCUSIF, which totaled $146.0 and $137.5 million for 2013 and 2012, respectively, is reflected
as a reduction of the expenses shown in the accompanying financial statements. These
transactions are settled monthly. As of December 31, 2013 and 2012, amounts due from
NCUSIF, under this allocation method, totaled $3.3 and $2.0 million, respectively.




                                                10
In 1992, the Fund entered into a commitment to borrow up to $42.0 million in a 30-year secured
term note with NCUSIF. The monies were drawn as needed to fund the costs of constructing a
building in 1993. Interest costs incurred were $248.8 and $290.0 thousand for 2013 and 2012,
respectively. The notes payable balances as of December 31, 2013 and 2012 were $13.1 and
$14.4 million, respectively. The current portion of the long term debt is $1.3 million as of
December 31, 2013.

The variable rate on the note is equal to NCUSIF’s prior-month yield on investments. The
average interest rates during 2013 and 2012 were 1.82% and 1.93%, respectively. The interest
rates as of December 31, 2013 and 2012 were 1.78% and 1.83%, respectively.

The secured term note requires principal repayments as of December 31, 2013 as follows (in
thousands):

                 Years ending December 31                         Secured Term
                                                                      Note
                 2014                                                     $1,341
                 2015                                                      1,341
                 2016                                                      1,341
                 2017                                                      1,341
                 2018                                                      1,341
                 Thereafter                                                6,369
                 Total                                                  $13,074

(b) Transactions with CLF

Certain administrative services are provided by the Fund to CLF. The Fund pays CLF’s
employee salaries and related benefits, as well as CLF’s portion of building and operating costs.
Reimbursements of these expenses are determined by applying a ratio of CLF full-time
equivalent employees to the NCUA total, with settlement and payment occurring quarterly. All
other CLF reimbursement expenses are paid annually. The costs of the services provided to CLF
were $409.8 and $553.0 thousand for the years ending December 31, 2013 and 2012,
respectively, and are reflected as a reduction of the expenses shown in the accompanying
financial statements.

Other accounts receivable include $30.9 thousand and $0 of amounts due from the CLF as of
December 31, 2013 and 2012, respectively.

(c) Support of CDRLF

The Fund supports the administration of programs under CDRLF by paying related personnel
costs such as pay and benefits as well as other costs which include travel, training, telephone,
supplies, printing, and postage.




                                                11
For the years ending December 31, 2013 and 2012, unreimbursed administrative support to
CDRLF is estimated at (in thousands):

                                                         2013                 2012
      Personnel                                                 $310                 $347
      Other                                                       64                   89
      Total                                                     $374                 $436

(d) Support of TCCUSF

The Fund supports the administration of programs under TCCUSF by paying related personnel
costs such as pay and benefits and other associated costs which include travel, training,
telephone, supplies, printing, and postage.

For the years ending December 31, 2013 and 2012, unreimbursed administrative support to
TCCUSF is estimated at (in thousands):

                                                         2013                 2012
      Personnel                                                $986              $1,838
      Other                                                      29                  59
      Total                                                  $1,015              $1,897

In addition, the Fund initially paid for and was reimbursed $589.1 and $231.0 thousand for the
salaries and related benefits of TCCUSF employees for the year-ending December 31, 2013 and
2012, respectively. These reimbursements occur monthly and are reflected as a reduction of the
corresponding expenses in the accompanying financial statements.

(e) Federal Financial Institutions Examination Council (FFIEC)

NCUA is one of the five Federal agencies that fund FFIEC operations. Under FFIEC’s charter,
NCUA’s Chairman is appointed as a Member and served as its Chairman for a two-year term
that ended on April 1, 2013. FFIEC was established on March 10, 1979, as a formal inter-
agency body empowered to prescribe uniform principles, standards, and report forms for the
Federal examination of financial institutions by NCUA, the Board of Governors of the Federal
Reserve System, the Federal Deposit Insurance Corporation, the Office of the Comptroller of the
Currency, the Consumer Financial Protection Bureau, and the State Liaison Committee. FFIEC
was also established to make recommendations to promote uniformity in the supervision of
financial institutions. Additionally, FFIEC provides training to staff employed by Member
agencies; the Member agencies are charged for these trainings based on use. For the years ended
December 31, 2013 and 2012, FFIEC assessments totaled $983.6 and $868.0 thousand,
respectively. FFIEC’s 2014 budgeted assessments to NCUA total $1.1 million (unaudited).

(f) Real Estate Available for Sale

The Fund purchases homes from employees enrolled in the agency’s home purchase program
who are unable to sell their homes in a specified time period, as mentioned in Note 6.

                                              12
8.     LEASE COMMITMENTS

Description of Leasing Agreements – The Fund has entered into lease agreements with vendors
for the rental of office space and office equipment, which includes laptops, and copiers.

Operating Leases – The Fund leases a portion of NCUA’s office space under lease agreements
that will continue through 2020. Office rental charges amounted to approximately $1.2 and $1.2
million, of which approximately $689.0 and $685.0 thousand were reimbursed by NCUSIF for
2013 and 2012, respectively. In addition, the Fund leases laptop computers and other office
equipment under operating leases with lease terms that will continue through 2015.

Capital Leases – The Fund leases copier equipment under lease agreements that run through
2017. Amounts presented in the table below include $7.1 thousand of imputed interest.

The future minimum lease payments to be paid over the next five years as of December 31,
2013, before reimbursements, are as follows (in thousands):

      Years ending December 31                         Operating              Capital
                                                        Leases                Leases
      2014                                                  $1,706                      $24
      2015                                                    1,316                      22
      2016                                                      491                      15
      2017                                                      500                       6
      2018                                                      312                       -
      Thereafter                                                561                       -
      Total                                                 $4,886                      $67

Based on the allocation factor approved by the NCUA Board, NCUSIF is expected to reimburse
the Fund for approximately 69.2% of the 2014 operating lease payments.

The Fund, as a lessor, holds operating lease agreements with three tenants, each of whom rents a
portion of the Fund’s building for retail space. The leases carry three to five year terms with
escalating rent payments. The last of these leases is set to expire in 2015.

The future minimum lease payments to be received from these non-cancelable operating leases at
December 31, 2013 are as follows (in thousands):

                   Years ending December 31                      Scheduled
                                                               Rent Payments
                   2014                                                 $518
                   2015                                                    72
                   2016                                                     -
                   2017                                                     -
                   2018                                                     -
                   Thereafter                                               -
                   Total                                                $590

                                               13
9.     RETIREMENT PLANS

Eligible employees of the Fund are covered by Federal Government retirement plans—either the
Civil Service Retirement System (CSRS) or the Federal Employees Retirement System (FERS).
Both plans are defined benefit retirement plans. FERS is comprised of a Social Security Benefits
Plan, a Basic Benefits Plan, and the Thrift Savings Plan. Contributions to the plans are based on
a percentage of an employee’s gross pay. Under the Thrift Savings Plan, employees may also
elect additional contributions up to $17.5 thousand ($23.0 thousand for age 50 and above) in
2013, and the Fund will match up to 5% of the employee’s gross pay. In 2013 and 2012, the
Fund’s contributions to the plans were approximately $19.8 and $19.2 million, respectively, of
which approximately $11.7 and $11.4 million, respectively, was allocated to NCUSIF.

These defined benefit plans are administered by the U.S. Office of Personnel Management
(OPM), which determines the required employer contribution level. The Fund does not account
for the assets pertaining to the above plans, and does not have actuarial data with respect to
accumulated plan benefits or the unfunded liability relative to eligible employees. These
amounts are reported by OPM and are not allocated to individual employers.

The Fund established a voluntary defined contribution 401(k) Plan (NCUA Savings Plan),
effective January 1, 2012. The NCUA Collective Bargaining Agreement (CBA) sets the rates of
contribution required by the Fund, and the current agreement is in effect through the end of 2014,
continuing each year thereafter until a new agreement is negotiated. The current CBA requires
the Fund to contribute 3.0% of an employee’s compensation as defined in Article 9
Compensation and Benefits of the CBA. In addition, the current CBA requires the Fund to
match employee contributions up to 1.0% in 2013 and 1.5% in 2014. NCUA’s contributions for
2013 and 2012 were $4.6 and $3.7 million, respectively. The operating expense associated with
the NCUA Savings Plan in 2013 and 2012 were $63.0 and $5.0 thousand, respectively. A total
of 59.1% of all costs of the NCUA Savings Plan was allocated to the NCUSIF in 2013.
Matching, vesting, and additional information is published and made available in a Summary
Plan Description.

10.    FAIR VALUE MEASUREMENTS

The following disclosures of the estimated fair values are made in accordance with the
requirements of FASB ASC 820, Fair Value Measurements and Disclosures. Fair value is the
amount that would be received to sell an asset, or paid to transfer a liability in an orderly
transaction between market participants at the measurement date.

The Fund has no financial instruments that are subject to fair value measurement on a recurring
basis.




                                               14
The related impairment charges for 2013 and 2012 were $27.0 and $186.0 thousand,
respectively. Impairment charges are recorded within the statement of revenues, expenses and
changes in fund balance and represent non-recurring fair value measures. The following table
presents the carrying amounts and established fair values (in thousands) of the Fund’s assets held
for sale as of December 31, 2013 and 2012.

                                                                                  Impairment
                                             Amortized         Aggregate            at Year-
      Assets held for sale                   Cost Basis        Fair Value             End

      2013                                               -                 -                 -

      2012                                            $854            $854               $120

(a) Non-recurring Fair Value Measures

Assets held for sale represents residences from relocating employees and is presented at
aggregate fair value less cost to sell. The fair value measurement recorded during the period
includes pending purchase contracts, the lower of list prices or appraisals if less than six months
old (if no pending purchase contracts exist), or recent market analyses (if no recent list prices or
appraisals are readily available). Additionally, the fair value incorporates estimated reductions in
the fair value to recognize costs to sell the properties. The Fund believes that these
measurements fairly reflect the most current valuation of the assets.

(b) Summary Financial Instrument Fair Values

The carrying values approximate the fair values of certain financial instruments as of December
31, 2013 and 2012, were as follows (in thousands):

                                               2013                                   2012
                                        Carrying    Estimated                  Carrying    Estimated
                                         Amount     Fair Value                  Amount     Fair Value
Cash and cash equivalents                $37,913       $37,913                  $36,521       $36,521
Due from NCUSIF                            3,313         3,313                    2,040         2,040
Employee advances                             38            38                       25            25
Other accounts receivable, net               203           203                      211           211
Obligations under capital lease               59            59                       78            78
Notes payable to NCUSIF                   13,074        13,074                   14,415        14,415

Cash and Cash Equivalents – The carrying amounts for cash and cash equivalents financial
instruments approximates fair value as the short-term nature of these instruments does not lead to
significant fluctuations in value. Cash equivalents are U.S. Treasury overnight investments.

Due from NCUSIF – The carrying amounts for the due from NCUSIF financial instruments
approximates fair value, as the amount is scheduled to be paid within the first quarter of fiscal
year 2014.

                                                 15
Employee Advances – The carrying amounts for receivables from employees’ financial
instruments approximates fair value, as the amount is scheduled to be paid in fiscal year 2014.

Other Accounts Receivable, Net – The carrying amounts for other accounts receivable
approximates fair value, as the original gross amounts together with a valuation allowance reflect
the net amount that is deemed collectible. As of December 31, 2013 and 2012, the Fund’s Other
Accounts Receivable includes an allowance in the amount of $74.1 and $76.0 thousand,
respectively.

Obligation under Capital Lease – The carrying amounts for the remaining obligations owed on
capital leases financial instruments approximates fair value because the underlying interest rates
approximates rates currently available to the Fund.

Notes Payable to NCUSIF – The carrying amounts for notes payable to NCUSIF financial
instruments approximates fair value due to its variable rate nature.

11.    CONTINGENCIES

NCUA recognizes contingent liabilities when a past event or transaction has occurred, a future
outflow or other sacrifice of resources is probable, and the future outflow or sacrifice of
resources is measurable. NCUA is party to various routine administrative proceedings, legal
actions, and claims brought against it, which has or may ultimately result in settlements or
decisions against the agency. For those matters where an estimate is possible and the loss is
probable, such amount has been accrued in other liabilities.

12.    COLLECTIVE BARGAINING AGREEMENT

NCUA has a collective bargaining agreement (CBA) with the National Treasury Employees
Union (NTEU) that became effective on November 1, 2011. NTEU is the exclusive
representative of approximately 80% of NCUA employees. This agreement will remain in effect
for a period of three years from its effective date and will be automatically renewable for
additional one year periods until otherwise renegotiated by the parties.

13.    SUBSEQUENT EVENTS

Subsequent events have been evaluated through February 13, 2014 which is the date the financial
statements were available to be issued, and management determined that there are no other items
to disclose.




                                                16
Report #OIG-14-04
National Credit Union Share
Insurance Fund
Financial Statements as of and for the Years Ended
December 31, 2013 and 2012, and
Independent Auditors’ Report
NATIONAL CREDIT UNION SHARE INSURANCE FUND
TABLE OF CONTENTS




                                                                       Page

OVERVIEW                                                                   1

INDEPENDENT AUDITORS’ REPORT                                              8

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2013
AND 2012:


Balance Sheets                                                           11

Statements of Net Cost                                                   12

Statements of Changes in Net Position                                    13

Statements of Budgetary Resources                                        14

Notes to Financial Statements                                          15-32

Required Supplementary Information (Unaudited)                         32-33
Overview

I.   Mission and Organizational Structure

NCUSIF Mission

The National Credit Union Administration (NCUA) administers the National Credit Union Share
Insurance Fund (NCUSIF or Fund). 1 Congress created the NCUSIF in 1970 to insure members’ shares
(deposits) in credit unions. The NCUSIF is backed by the full faith and credit of the U.S. Government.
As of December 2013, the NCUSIF insures $866.3 billion in member shares in just over 6,550 credit
unions.

The NCUSIF protects members’ accounts in insured credit unions in the unlikely event of a credit union
failure. The NCUSIF insures the balance of each members’ account, dollar-for-dollar, up to the standard
maximum share insurance amount of $250,000, including principal and posted dividends through the date
of the failure. The Fund insures all types of member shares received by a credit union in its usual course
of business.

The NCUSIF also provides funding when the NCUA Board determines that some form of financial
assistance to troubled credit unions will result in the least resolution cost. Examples of financial
assistance include:
    • a waiver of statutory reserve requirements;
    • a guaranteed line of credit, permanent cash assistance including subordinated notes or other
        forms; and
    • the identification of an assisted merger partner.

When a credit union is no longer able to continue operating and assistance alternatives are not practical,
the credit union will be liquidated and the NCUSIF will pay members’ shares up to the standard
maximum insurance amount.

Organizational Structure

NCUA’s Director of the Office of Examination and Insurance (E&I) is responsible for overseeing the
agency’s examination and supervision program. NCUA’s E&I Director is also the President of the
NCUSIF and responsible for risk management of the NCUSIF. Regional offices and the Office of
National Examinations and Supervision (ONES) conduct examinations and other NCUA offices provide
operational and administrative services to the NCUSIF. The Asset Management and Assistance Center
(AMAC) conducts credit union liquidations. AMAC establishes an Asset Management Estate (AME) to
collect the obligations due to the credit union, monetize assets and distribute amounts to claimants,
including the NCUSIF, according to their respective regulatory payout priorities.



1
  The NCUSIF is one of five funds established in the U.S. Treasury and administered by the NCUA Board. The four permanent
funds include the NCUSIF, the Operating Fund, the Central Liquidity Facility (CLF) and the Community Development
Revolving Loan Fund. In addition, the NCUA Board administers the Temporary Corporate Credit Union Stabilization Fund
(TCCUSF) that was established in 2009 to accrue the losses of corporate credit unions during the credit crisis and to recover such
losses over time. All five funds report under separate financial statements.



                                                                1
II. Performance Goals, Objectives and Results

Consistent with the NCUA 2011-2014 Strategic Plan, the agency prepared the NCUA Annual
Performance Plan for 2013, which included the high priority performance goal to “monitor and control
risks in consumer credit unions.” The plan measures success for this goal as a ratio of “net losses for
current year failures to average insured shares less than 0.03%.” For 2013, the ratio was 0.008%, as
compared to 0.026% for 2012.

Looking forward, the NCUA 2014-2017 Strategic Plan, shifts the emphasis of performance goals from
improving the health of credit unions to ensuring a “sustainable credit union system.” Performance goals
include maintaining strong average net worth, examining all federal credit unions annually, and
examining federally-insured state credit unions regularly, based on their size. Specific performance goals
will be set in the NCUA Annual Performance Plan for 2014.

In measuring the performance of the NCUSIF for 2013 and 2012, the following additional measures
should be considered.

                                     2013 and 2012 Performance Measures
                                                 December 31, 2013                               December 31, 2012
         Equity Ratio (Before Distribution)                      1.31%                                          1.31%
         Insurance and Guarantee Program                 $220.7 million                                $412.5 million
         Liabilities (Contingent Liability)
         Net Position                                      $11.3 billion                                     $11.3 billion
         Insured Shares                                   $866.3 billion                                    $839.4 billion
         Credit Union Involuntary                                     17                                                22
         Liquidations and Assisted Mergers
         Assets in CAMEL 2 3, 4 and 5 rated               $122.4 billion                                    $138.6 billion
         Credit Unions

The equity ratio and contingent liability are significant financial performance measures in assessing the
ongoing operations of the NCUSIF. The equity ratio serves as a mechanism to balance funding from
capitalization deposits and premium assessments in response to changes in insured share growth,
insurance losses, interest income from U.S. Treasury security investments, as well as other revenues and
expenses.

Equity Ratio and Normal Operating Level
The financial performance of the NCUSIF revolves around the equity ratio and the Normal Operating
Level (NOL). The equity ratio is calculated as the ratio of the contributed one percent deposit plus
cumulative results of operations, excluding net cumulative unrealized gains and losses on investments, to
the aggregate amount of the insured shares in all insured credit unions. The NOL is the desired long-term
target equity level for the NCUSIF. The NCUA Board sets the NOL between 1.20% and 1.50%. The
NCUA Board set the current NOL at 1.30%.

By statute, when the equity ratio falls below 1.20%, the NCUA Board must establish and implement a
restoration plan to rebuild the equity ratio. In 2013 and 2012, the NCUA Board did not assess a premium
charge to insured credit unions for the NCUSIF. The NCUSIF pays a distribution when the equity ratio
exceeds the NOL at year-end. When the NCUSIF or the Temporary Corporate Credit Union
Stabilization Fund (TCCUSF) does not have an outstanding borrowing from the U.S. Treasury, the
distribution is paid to insured credit unions.

2
  CAMEL is the acronym for Capital, the quality of Assets, the capability of Management, the quality and level of Earnings, and
the adequacy of Liquidity.


                                                               2
The equity ratio was at 1.31%, slightly above the NOL as of the year-end 2013. This resulted in a
distribution payable of $95.3 million to TCCUSF to reduce the equity ratio to 1.30%. For 2012, the
NCUSIF ended the year with an equity ratio of 1.31%, which resulted in a distribution of $88.1 million to
TCCUSF to reduce the equity ratio to 1.30%.

Insurance Losses (Contingent Liabilities)
Through its supervision process, NCUA applies a supervisory rating system to assess each insured credit
union’s relative health in the adequacy of Capital, the quality of Assets, the capability of Management,
the quality and level of Earnings, and the adequacy of Liquidity (CAMEL), applying a rating to the credit
union ranging from “1” (strongest) to “5” (weakest). The CAMEL rating system is a tool to measure risk
and allocate resources for supervisory purposes. NCUA periodically reviews the CAMEL rating system to
respond to continuing economic and regulatory changes in the credit union industry.

The NCUSIF’s year-end contingent liability is derived by using an internal model that applies estimated
failure and loss rates based on an econometric model that takes into account the historical loss history,
CAMEL ratings, credit union level financial ratios, and macroeconomic conditions to all insured credit
unions. In addition, specific analysis is performed on those insured credit unions where failure is
imminent or where additional information is available that may affect the estimate of losses.

NCUA identifies credit unions at risk of failure through the supervisory and examination process, and
estimates losses based upon economic trends and credit unions’ financial condition and operations.
NCUA also evaluates overall credit union economic trends and monitors potential system-wide risk
factors, such as increasing levels of consumer debt, bankruptcies, and delinquencies.

The credit union industry improved during 2013 as reflected by the reduction in assets in CAMEL 3, 4
and 5 rated credit unions as compared to 2012. Assets in CAMEL 3, 4 and 5 rated credit unions dropped
to $122.4 billion at the end of 2013, versus $138.6 billion at the end of 2012. Improvements were also
seen with the system-wide net worth ratio; this ratio increased to 10.7% from 10.4%. These
improvements, as well as other trends, helped contribute to a reduction in amounts for the Insurance and
Guarantee Program Liabilities on the NCUSIF Balance Sheets. The NCUSIF ended 2013 with Insurance
and Guarantee Program Liabilities of $220.7 million to cover potential losses as compared with
$412.5 million for the previous year-end, a reduction of $191.8 million.

Due to uncertain systemic risks and the possibility of variances from historical data, actual losses could
differ materially from the contingent liabilities recorded by the NCUSIF.

Performance measures are designed to enable management and our stakeholders to assess programs and
financial performance and to use this information to make improvements. Performance measures have
inherent limitations including the change over time in the correlation of cause and effect. A strong
correlation between cause and effect in one period may not continue into the next. In addition,
performance measures may not address systemic risks, which can have a significant determination on
future results.




                                                     3
III. Financial Statement Analysis

The NCUSIF ended 2013 with the Balance Sheets showing a decrease in Total Assets and a reduction in
Insurance and Guarantee Program Liabilities and a decrease in its Total Net Position from the prior year.
With the Statements of Net Cost, net cost increased to $95.1 million due to changes in the Provision for
Insurance Losses. These changes are explained in further detail below.

                             Summarized Financial Information (in thousands)
                                            December 31, 2013            December 31, 2012
        Total Assets                                   $11,606,600                 $11,874,691
        Investments, Net                                11,199,001                  11,293,087
        Notes Receivable, Net                              212,208                      249,254
        Receivables from Asset                             119,863                      252,029
        Management Estates, Net
        Insurance and Guarantee                            220,651                      412,452
        Program Liabilities
        Contributed Capital                              8,661,174                    8,315,011
        Net Position                                    11,281,103                  11,283,852
        Operating Expenses                                 148,312                      141,237
        Provision for Insurance Losses,                   (41,054)                     (74,874)
        Reserve Expense (Reduction)
        Total Net Cost/(Income) of                          95,124                       54,685
        Operations
        Cumulative Results of                            2,619,929                    2,968,841
        Operations
        Interest Revenue – Investments                     198,264                      206,995

Balance Sheet Highlights
Total Assets declined by $268.1 million in 2013. The decline came primarily from net unrealized losses
on Investments, $356.8 million and total net cost of operations, $95.1 million, partially offset by interest
income, $198.3 million.

Balances of Investments decreased by $94.1 million during 2013, primarily driven by decreases in the
market value of U.S. Treasury securities held as available-for-sale. During 2013, the interest rate yield
curve on U.S. Treasury securities increased, primarily driven by the increase in market interest rate yields
on securities with maturities of one year or more. The increase in market interest rate yields resulted in a
decrease in the market value of U.S. Treasury securities.

Notes Receivable, Net declined $37.0 million and Receivables from Asset Management Estates, Net
declined $132.2 million. The decreases in the balances of Notes Receivable, Net and Receivables from
Asset Management Estates, Net include the collection of principal on outstanding loans, mortgages and
other debt instruments. Also, Receivables from Asset Management Estates, Net include various
transactions that are explained in Note 6 to the financial statements.

Insurance and Guarantee Program Liabilities, referred to as contingent liabilities, were $220.7 million and
$412.5 million as of December 31, 2013 and 2012, respectively. In general, the decrease reflects
improved financial strength in the credit union industry and strengthening macroeconomic conditions,
such as geographic housing indicators.




                                                      4
Contributed Capital increased by $346.2 million during 2013 due to the growth of insured shares in credit
unions. Each insured credit union deposits one percent of its insured shares as Contributed Capital. In
2013, credit union membership grew by 2.61% to approximately 96.3 million members.

Net Position decreased $2.7 million during 2013 and is a combination of other increases and decreases.
Increases include interest revenue on Investments of $198.3 million and net additions of Contributed
Capital of $346.2 million. Decreases include net unrealized losses on Investments of $356.8 million,
distribution payable of $95.3 million and Net Cost of Operations of $95.1 million.

Statements of Net Cost Highlights
Total Net Cost of Operations was $95.1 million for 2013, as compared to $54.7 million for 2012. In 2013
and 2012, the decline in Insurance and Guarantee Program Liabilities resulted in a reduction in reserve
expenses related to lower estimated insurance losses in the Statements of Net Cost. The reduction was
$41.1 million for 2013 and $74.9 million for 2012.

Cumulative Results of Operations Highlights
Cumulative results of operations decreased by $348.9 million in 2013. This decrease was primarily
driven by net unrealized losses on Investments of $356.8 million, Net Cost of Operations of $95.1
million, distribution to the TCCUSF of $95.3 million, partially offset by Interest Revenue of
$198.3 million. Interest Revenue was the primary source of funds to partially offset expenses and
obligations.

As of December 31, 2013 and 2012, the NCUSIF recorded an estimate for the distribution payable due to
the TCCUSF totaling $95.3 million and $88.1 million, respectively, thereby bringing the equity ratio
down to its NOL of 1.30%.

Statements of Budgetary Resources Highlights
Activity impacting budget totals of the overall Federal Government is recorded in the NCUSIF’s
Statements of Budgetary Resources. The NCUSIF’s net outlays were negative, meaning that NCUSIF had
net cash inflows of $376.3 million and $280.2 million for 2013 and 2012, respectively. This increase is
primarily the result of the growth of credit union insured shares and the related 1.00% contributed capital
deposit adjustment.

Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and results of
operations of the NCUSIF. While the statements have been prepared from the books and records of the
NCUSIF in accordance with U.S. generally accepted accounting principles (GAAP) for Federal entities
and the formats prescribed by the Office of Management and Budget, the statements are in addition to the
financial reports used to monitor and control budgetary resources that are prepared from the same books
and records. The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.




                                                    5
Liquidity Risk and Capital Resources

For liquidity, the NCUSIF maintains cash in its Fund Balance with Treasury (FBWT) as well as
investments in U.S. Treasury securities. Investments in U.S. Treasury securities include overnight
investments, which are available for the possibility of urgent liquidity needs.

                       2013 and 2012 Fund Balance with Treasury and Investments
                                              December 31, 2013         December 31, 2012
        Fund Balance with Treasury                 $      2.5 million        $      2.5 million
        U.S. Treasury Securities
                Overnight                               329.6 million             359.7 million
                Available-for-Sale                   10,869.4 million          10,933.4 million

During 2013, the FBWT account was primarily increased by maturing investments in U.S. Treasury
securities. The FBWT account was decreased by purchases of U.S. Treasury securities, nonexpenditure
transfers, and amounts expended for the purposes of the share insurance program.

The NCUSIF has multiple other sources of funding including:
   • capitalization deposits contributed by insured credit unions, as provided by the Federal Credit
      Union Act (FCU Act);
   • cumulative results of operations retained by the NCUSIF;
   • assessments on insured credit unions, as necessary;
   • borrowings from the U.S. Treasury; and
   • borrowings from the Central Liquidity Facility (CLF).

The NCUSIF is a revolving fund in the U.S. Treasury and has access to sufficient funds to meet its
obligations, including its Insurance and Guarantee Program Liabilities.

Contributed Capital
Each insured credit union must deposit and maintain in the NCUSIF 1.00% of its insured shares. For the
years ended December 31, 2013 and 2012, the NCUSIF’s contributed capital from insured credit unions
increased by $346.2 million and $509.3 million, respectively. Total insured shares were $866.3 billion
and $839.4 billion as of December 31, 2013 and 2012, respectively.

At December 31, 2013, NCUA estimated the total insured shares to be approximately $866.3 billion,
subject to certified reporting of insured share amounts. We expect that the NCUSIF will receive
additional capitalization deposits of approximately $1.7 million from insured credit unions in early 2014
when NCUA invoices for its biannual contributed capital adjustment.

Cumulative Results of Operations
The NCUSIF ended 2013 and 2012 with a total of $2.6 billion and $3.0 billion in cumulative results of
operations, respectively. Interest Revenue is currently the primary source of funds for operations.

Assessments
The NCUA Board may also assess premium charges to all insured credit unions, as provided by the
FCU Act. During the years ended December 31, 2013 and 2012, the NCUA Board did not assess any
premium charges to insured credit unions for the NCUSIF.

Borrowing Authority from the U.S. Treasury
The NCUSIF has $6.0 billion in maximum statutory borrowing authority, shared with the TCCUSF, from
the U.S. Treasury. As of December 31, 2013 and 2012, the TCCUSF had $2.9 billion and $5.1 billion in
borrowing outstanding from the U.S. Treasury, respectively; the NCUSIF had no borrowings outstanding.
As a result, the NCUSIF had $3.1 billion and $0.9 billion, respectively, in available borrowing authority
                                                    6
shared with the TCCUSF. The estimated losses and liquidity needs of the TCCUSF are based on the
NCUA's expectations and assumptions about the resolution of failed corporate credit unions, including
the disposition and recovery value of their assets. Actual losses of the TCCUSF, including the TCCUSF's
funding needs, could differ from those estimates. Consequently, additional borrowing for the TCCUSF
reduces funds available from this source.

Borrowing Authority from the CLF
The NCUSIF also has the ability to borrow from the CLF as provided in the FCU Act. At December 31,
2013 and 2012, the NCUSIF did not have any outstanding borrowing from the CLF. The CLF is
authorized by statute to borrow, from any source, an amount not to exceed twelve times its subscribed
capital stock and surplus. The CLF had statutory borrowing authority of $2.9 billion as of December 31,
2013. NCUA maintains a note purchase agreement with Federal Financing Bank (FFB) on behalf of CLF
with a maximum principal amount of $2.0 billion. Under the terms of its agreement, CLF borrows from
FFB as needed. Under terms prescribed by the note purchase agreement, CLF executes promissory notes
in amounts as necessary and renews them annually. Advances under the current promissory note can be
made no later than March 31, 2014.

IV. Systems, Controls, and Legal Compliance

The NCUSIF was created by Title II of the FCU Act, 12 U.S.C. §1781 et seq., as amended. In January
2011, the National Credit Union Authority Clarification Act, Public Law 111-382, amended the FCU Act
in part by amending the definitions of “equity ratio” and “net worth.” NCUA, including the NCUSIF, is
exempt from requirements under the Federal Credit Reform Act of 1990 (2 U.S.C. §661e (a)).

Internal controls should be designed to provide reasonable assurance regarding prevention or prompt
detection of unauthorized acquisition, use, or disposition of assets. The Federal Managers’ Financial
Integrity Act (FMFIA) requires agencies to establish management controls over their programs and
financial systems. Accordingly, NCUA management is responsible for establishing and maintaining
effective internal controls and financial management systems that meet the objectives of FMFIA, which
include safeguarding assets and compliance with applicable laws and regulations. NCUA managers
monitor and assess their relevant internal controls and report on their assessment. This allows NCUA
management to provide reasonable assurance that internal controls are operating effectively. NCUA is in
compliance with FMFIA as well as all applicable laws such as the Prompt Payment Act, and the Debt
Collection and Improvement Act. As required by the Improper Payments Elimination and Recovery Act,
we have determined that the NCUSIF’s programs are not susceptible to a high risk of significant improper
payments.

As required by the Federal Information Security Management Act (FISMA), NCUA develops,
documents, and implements an agency-wide program to provide information privacy and security
(management, operational, and technical security controls) for the information and information systems
that support the operations of the agency, including those provided or managed by another agency,
contractor, or other source.




                                                   7
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                        Independent Auditors’ Report


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

Report on the Financial Statements

We have audited the accompanying financial statements of the National Credit Union Share Insurance
Fund (NCUSIF), which comprise the balance sheets as of December 31, 2013 and 2012, and the related
statements of net cost, changes in net position, and statements of budgetary resources for the years then
ended, and the related notes to the financial statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these financial statements in
accordance with U.S. generally accepted accounting principles; this includes the design, implementation,
and maintenance of internal control relevant to the preparation and fair presentation of financial statements
that are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these financial statements based on our audits. We conducted
our audits in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 14-02 require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
financial statements. The procedures selected depend on the auditors’ judgment, including the assessment
of the risks of material misstatement of the financial statements, whether due to fraud or error. In making
those risk assessments, the auditor considers internal control relevant to the entity’s preparation and fair
presentation of the financial statements in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity’s internal
control. Accordingly, we express no such opinion. An audit also includes evaluating the appropriateness of
accounting policies used and the reasonableness of significant accounting estimates made by management,
as well as evaluating the overall presentation of the financial statements.
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.
Opinion on the Financial Statements

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the National Credit Union Share Insurance Fund as of December 30, 2013 and 2012,
and its net costs, changes in net position, and budgetary resources for the years then ended in accordance
with U.S. generally accepted accounting principles.
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Other Information

Required Supplementary Information

U.S. generally accepted accounting principles require that the information in the Overview and Required
Supplementary Information sections be presented to supplement the basic financial statements. Such
information, although not a part of the basic financial statements, is required by the Federal Accounting
Standards Advisory Board who considers it to be an essential part of financial reporting for placing the
basic financial statements in an appropriate operational, economic, or historical context. We have applied
certain limited procedures to the required supplementary information in accordance with auditing standards
generally accepted in the United States of America, which consisted of inquiries of management about the
methods of preparing the information and comparing the information for consistency with management’s
responses to our inquiries, the basic financial statements, and other knowledge we obtained during our
audits of the basic financial statements. We do not express an opinion or provide any assurance on the
information because the limited procedures do not provide us with sufficient evidence to express an
opinion or provide any assurance.

Other Reporting Required by Government Auditing Standards

Internal Control Over Financial Reporting
In planning and performing our audit of the financial statements, we considered the NCUSIF’s internal
control over financial reporting (internal control) to determine the audit procedures that are appropriate in
the circumstances for the purpose of expressing our opinion on the financial statements, but not for the
purpose of expressing an opinion on the effectiveness of the NCUSIF’s internal control. Accordingly, we
do not express an opinion on the effectiveness of the NCUSIF’s internal control.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses or significant deficiencies. Given these limitations, during our audit we did not identify any
deficiencies in internal control that we consider to be material weaknesses. However, material weaknesses
may exist that have not been identified.

Compliance and Other Matters
As part of obtaining reasonable assurance about whether the NCUSIF’s financial statements are free from
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
and contracts, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts, and certain provisions of other laws and regulations specified in OMB
Bulletin No. 14-02. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion. The results of our tests of
compliance disclosed no instances of noncompliance or other matters that are required to be reported
herein under Government Auditing Standards or OMB Bulletin No. 14-02.
Purpose of the Other Reporting Required by Government Auditing Standards

The purpose of the communication described in the Other Reporting Required by Government Auditing
Standards section is solely to describe the scope of our testing of internal control and compliance and the
result of that testing, and not to provide an opinion on the effectiveness of the NCUSIF’s internal control or
compliance. Accordingly, this communication is not suitable for any other purpose.




February 14, 2014
NATIONAL CREDIT UNION SHARE INSURANCE FUND

BALANCE SHEETS
As of December 31, 2013 and 2012
(Dollars in thousands)
                                                                                 2013                 2012
ASSETS
INTRAGOVERNMENTAL
  Fund Balance with Treasury (Note 2)                                        $          2,501     $          2,479
  Investments, Net - U.S. Treasury Securities (Note 3)                             11,199,001           11,293,087
  Accounts Receivable - Other                                                             -                      8
  Accounts Receivable - Note due from the National
      Credit Union Administration Operating Fund (Note 4)                              13,074               14,415
  Accrued Interest Receivable (Note 3)                                                 59,597               63,154
Total Intragovernmental Assets                                                     11,274,173           11,373,143
PUBLIC
 Notes Receivable, Net (Note 5)                                                         212,208              249,254
 Accounts Receivable - Capitalization Deposits from Insured
      Credit Unions, Net (Note 4)                                                           -                     38
 Accounts Receivable - Other                                                                -                     25
 Accrued Interest Receivable - Notes (Note 5)                                               329                  202
 Other - Receivables from Asset Management Estates (AMEs), Net (Note 6)                 119,863              252,029
 Other Assets                                                                                27                  -
Total Public Assets                                                                     332,427              501,548
TOTAL ASSETS                                                                 $     11,606,600     $     11,874,691
LIABILITIES
INTRAGOVERNMENTAL
  Accounts Payable - Due to the Temporary Corporate Credit Union
    Stabilization Fund                                                       $            3,910   $             690
  Accounts Payable - Due to the National Credit Union Administration
    Operating Fund (Note 9)                                                               3,313                2,040
  Other - Distribution Payable to the Temporary Corporate Credit Union
    Stabilization Fund (Note 8)                                                          95,291               88,090
Total Intragovernmental Liabilities                                                     102,514               90,820
PUBLIC
 Accounts Payable                                                                         2,332               87,567
 Other - Insurance and Guarantee Program Liabilities (Note 7)                           220,651              412,452
Total Public Liabilities                                                                222,983              500,019
TOTAL LIABILITIES                                                                       325,497              590,839
Commitments and Contingencies (Note 7)
NET POSITION
  Contributed Capital (Note 12)                                                     8,661,174            8,315,011
  Cumulative Result of Operations                                                   2,619,929            2,968,841
Total Net Position                                                                 11,281,103           11,283,852
TOTAL LIABILITIES AND NET POSITION                                           $     11,606,600     $     11,874,691

The accompanying notes are an integral part of these financial statements.




                                                                  11
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF NET COST
For the Years Ended December 31, 2013 and 2012
(Dollars in thousands)

                                                                                 2013                  2012
GROSS COSTS
Operating Expenses                                                           $          148,312    $          141,237
Provision for Insurance Losses
  Reserve Expense (Reduction) (Note 7)                                                  (41,054)              (74,874)
  AME Receivable Bad Debt Expense (Reduction) (Note 6)                                   (7,584)               (2,910)
   Total Gross Costs                                                                     99,674                63,453

LESS EARNED REVENUES
Interest Revenue on Note Receivable from the National Credit
  Union Administration Operating Fund (Note 4)                                             (249)                 (290)
Interest Revenue on Notes (Note 5)                                                       (3,476)               (2,097)
Insurance and Guarantee Premium Revenue                                                    (825)               (6,381)
    Total Earned Revenues                                                                (4,550)               (8,768)

TOTAL NET COST OF OPERATIONS                                                 $           95,124    $           54,685

The accompanying notes are an integral part of these financial statements.




                                                                  12
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF CHANGES IN NET POSITION
For the Years Ended December 31, 2013 and 2012
(Dollars in thousands)

                                                                                 2013              2012
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                           $    2,968,841    $    2,983,160

BUDGETARY FINANCING SOURCES
Non-Exchange Revenue
  Interest Revenue - Investments                                                    198,264           206,995
Other
  Distribution to the Temporary Corporate Credit Union
      Stabilization Fund (Note 8)                                                   (95,291)          (88,090)
OTHER FINANCING SOURCES
Non-Exchange Revenue
  Net Unrealized Gain/(Loss) - Investments                                         (356,761)          (78,539)
Total Financing Sources                                                            (253,788)           40,366
Net Cost of Operations                                                              (95,124)          (54,685)
Net Change                                                                         (348,912)          (14,319)
CUMULATIVE RESULTS OF OPERATIONS                                                  2,619,929         2,968,841

CONTRIBUTED CAPITAL (Note 12)
Beginning Balances                                                                8,315,011         7,805,718
Change in Contributed Capital                                                       346,163           509,293
CONTRIBUTED CAPITAL                                                               8,661,174         8,315,011

NET POSITION                                                                 $   11,281,103    $   11,283,852

The accompanying notes are an integral part of these financial statements.




                                                                  13
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF BUDGETARY RESOURCES
For the Years Ended December 31, 2013 and 2012
(Dollars in thousands)


                                                                                     2013                  2012
BUDGETARY RESOURCES (Notes 11 and 14)
Unobligated balance, brought forward, January 1                                  $     10,541,159      $     10,453,208
Spending authority from offsetting collections (mandatory)
 Collected                                                                                  846,416               940,745
 Change in receivables from federal sources                                                  (3,564)              (18,556)
 Anticipated nonexpenditure transfer                                                        (95,291)              (88,090)
TOTAL BUDGETARY RESOURCES                                                        $     11,288,720      $     11,287,307


STATUS OF BUDGETARY RESOURCES
Obligations incurred                                                             $          393,165    $          746,148
Unobligated balance, end of year:
 Exempt from apportionment                                                             10,895,555            10,541,159
Total unobligated balance, end of year                                                 10,895,555            10,541,159
TOTAL STATUS OF BUDGETARY RESOURCES                                              $     11,288,720      $     11,287,307

CHANGE IN OBLIGATED BALANCE
Unpaid Obligations:
Unpaid obligations, brought forward, January 1                                   $         87,311      $          1,710
Obligations incurred                                                                      393,165               746,148
Outlays (gross)                                                                          (470,099)             (660,547)
  Unpaid obligations, end of year                                                $         10,377      $         87,311
Uncollected payments:
Uncollected customer payments from federal sources, brought forward, January 1   $          (63,161)   $          (81,717)
Change in uncollected customer payments from Federal sources                                  3,564                18,556
  Uncollected customer payments from Federal sources, end of year                $          (59,597)   $          (63,161)

Obligated balance, start of year (net)                                           $           24,150    $          (80,007)
Obligated balance, end of year (net)                                             $          (49,220)   $           24,150

BUDGET AUTHORITY AND OUTLAYS, NET
Budget authority, gross (mandatory)                                              $        747,561      $        834,099
Actual offsetting collections (mandatory)                                                (846,416)             (940,745)
Change in uncollected customer payments from Federal sources (mandatory)                    3,564                18,556
Anticipated offsetting collections (mandatory)                                             95,291                88,090
BUDGET AUTHORITY, NET (MANDATORY)                                                $            -        $            -

Outlays, gross (mandatory)                                                       $        470,099      $        660,547
Actual offsetting collections (mandatory)                                                (846,416)             (940,745)
Outlays, net (discretionary and mandatory)                                               (376,317)             (280,198)
AGENCY OUTLAYS, NET (MANDATORY)                                                  $       (376,317)     $       (280,198)

The accompanying notes are an integral part of these financial statements.




                                                             14
 NATIONAL CREDIT UNION SHARE INSURANCE FUND

 NOTES TO FINANCIAL STATEMENTS
 AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2013 AND 2012


1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

  Reporting Entity
  The National Credit Union Share Insurance Fund (NCUSIF) was created by Title II of the
  Federal Credit Union Act (FCU Act), 12 U.S.C. §1781 et seq., as amended. The NCUSIF was
  established as a revolving fund in the Treasury of the United States (U.S. Treasury), under
  management of the National Credit Union Administration (NCUA) Board (NCUA Board) for
  the purpose of insuring member share deposits in all Federal Credit Unions (FCUs) and in
  qualifying state-chartered credit unions requesting insurance.

  The NCUA exercises direct supervisory authority over FCUs and coordinates required
  supervisory involvement with the state chartering authorities for state-chartered credit unions
  insured by the NCUSIF. Federally insured (insured) credit unions are required to report certain
  financial and statistical information to NCUA on a quarterly basis and are subject to periodic
  examination by the NCUA. Information derived through the supervision and examination
  process provides the NCUA with the ability to identify insured credit unions experiencing
  financial difficulties that may require assistance from the NCUSIF.

  Assistance from the NCUSIF may be in the form of a waiver of statutory reserve requirements,
  liquidity assistance in the form of a guaranteed line of credit pursuant to Section 208 of the
  FCU Act, permanent cash assistance in the form of a subordinated note pursuant to Section 208
  of the FCU Act, or other such form. In some cases, a merger partner for the credit union may
  be sought. Mergers between financially troubled credit unions and stronger credit unions may
  also require NCUSIF assistance. Merger assistance may be in the form of cash assistance,
  purchase of certain assets by the NCUSIF, and/or guarantees of the values of certain assets
  (e.g., primarily loans). When a credit union is no longer able to continue operating and the
  merger and assistance alternatives are not practical, the NCUSIF or the appropriate state
  supervisory authority may liquidate the credit union. In the event of a credit union liquidation,
  the NCUSIF pays members’ shares up to the maximum insured amount and monetizes the
  credit union’s assets.

  Fiduciary Responsibilities
  Fiduciary activities are the collection or receipt, management, protection, accounting,
  investment, or disposition by the Federal Government of cash or other assets, in which non-
  federal individuals or entities have an ownership interest that the Federal Government must
  uphold. NCUA’s Asset Management and Assistance Center (AMAC) conducts liquidations
  and performs management and recovery of assets for failed credit unions. Assets and liabilities
  of liquidated credit unions reside in Asset Management Estates (AMEs). These assets and
  liabilities are held in part, for the primary benefit of non-federal parties and therefore are
  considered fiduciary in accordance with Federal Accounting Standards Advisory Board
  (FASAB) Statement of Federal Financial Accounting Standards (SFFAS) No. 31, Accounting
  for Fiduciary Activities. Fiduciary assets are not assets of the Federal Government and

                                                15
therefore are not recognized on the Balance Sheet. Additionally, NCUA entity assets are non-
fiduciary.

Sources of Funding
Deposits insured by the NCUSIF are backed by the full faith and credit of the United States.
The NCUSIF has multiple sources of funding. Each insured credit union is required to deposit
and maintain in the NCUSIF 1.00% of its insured shares. The NCUA Board may also assess
premiums to all insured credit unions, as provided by the FCU Act.

In addition, the NCUSIF has borrowing authority, shared with the Temporary Corporate Credit
Union Stabilization Fund (TCCUSF), from the U.S. Treasury and the ability to borrow from
the NCUA’s Central Liquidity Facility (CLF).

Basis of Presentation
The NCUSIF’s financial statements have been prepared from its accounting records in
accordance with the FASAB’s SFFAS. The American Institute of Certified Public Accountants
recognizes FASAB as the official accounting standards-setting body of the Federal
Government. The format of the financial statements and notes is in accordance with the form
and content guidance provided in Office of Management and Budget (OMB) Circular A-136,
Financial Reporting Requirements, revised October 21, 2013.

Consistent with SFFAS No. 34, The Hierarchy of Generally Accepted Accounting Principles,
Including the Application of Standards Issued by the Financial Accounting Standards Board,
NCUA considers and where appropriate, applies Financial Accounting Standards Board
(FASB) guidance for those instances where no applicable FASAB guidance is available. Any
such significant instances are identified herein.

Basis of Accounting
In its accounting structure, the NCUSIF records both proprietary and budgetary accounting
transactions. Following the accrual method of accounting, revenues are recognized when
earned and expenses are recognized when incurred, without regard to the actual collection or
payment of cash.

Federal budgetary accounting recognizes the obligation, borrowing authorities, and other fund
resources upon the establishment of a properly documented legal liability, which may be
different from the recording of an accrual-based transaction. The recognition of budgetary
accounting transactions is essential for compliance with legal controls over the use of federal
funds and compliance with budgetary laws.

NCUA, including the NCUSIF, is exempt from requirements under the Federal Credit Reform
Act of 1990 (2 U.S.C. §661e(a)).

Use of Estimates
The preparation of financial statements in conformity with generally accepted accounting
principles (GAAP) for the Federal Government requires management to make estimates and
assumptions that affect the following:
  •   reported amounts of assets and liabilities;

                                              16
 •   disclosure of contingent assets and liabilities at the date of the financial statements; and
 •   the amounts of revenues and expenses reported during that period.

Actual results could differ from estimates. Significant items subject to those estimates and
assumptions include (i) reserves for probable losses and contingencies related to Insurance and
Guarantee Program Liabilities; (ii) the amount and timing of recoveries, if any, related to any
claims paid and settlement of the guarantee liabilities; (iii) allowance amounts established for
loan loss related to permanent cash assistance provided to insured credit unions; and (iv)
allowance amounts for losses on the receivables from AMEs.

Fund Balance with Treasury
Fund Balance with Treasury (FBWT) is the aggregate amount of the NCUSIF’s accounts with
the Federal Government’s central accounts, from which the NCUSIF is authorized to make
expenditures and pay liabilities. The entire FBWT is a revolving fund type.

Investments
Investment securities primarily consist of marketable U.S. Treasury securities of varying
maturities (debt securities). The NCUSIF also holds non-marketable U.S. Treasury overnight
securities purchased and reported at par value, which are classified as held to maturity. All
marketable securities are carried as available-for-sale, in accordance with FASB Accounting
Standards Codification (ASC) 320, Investments – Debt and Equity Securities.

Interest earned and unrealized holding gains and losses on U.S. Treasury securities are
excluded from net costs and reported as components of non-exchange revenue. Realized gains
and losses from the sale of available-for-sale securities are determined on a specific
identification basis.

The NCUSIF reviews all U.S. Treasury securities that are in an unrealized loss position for
other-than-temporary impairment (OTTI). The NCUSIF evaluates its U.S. Treasury securities
on a monthly basis. An investment security is deemed impaired if the fair value of the
investment is less than its amortized cost. Amortized cost includes adjustments (if any) made
to the cost basis of an investment for accretion, amortization, and previous OTTI. To
determine whether impairment is an OTTI, the NCUSIF takes into consideration whether it has
the intent to sell the security. The NCUSIF also considers available evidence to assess whether
it is more likely than not that it will be required to sell the debt security before the recovery of
its amortized cost basis. If the NCUA intends to sell, or more likely than not will be required
to sell the security before recovery of its amortized cost basis, an OTTI shall be considered to
have occurred.

Premiums and discounts are amortized or accreted over the life of the related available-for-sale
security as an adjustment to yield using the effective interest method.

Accounts Receivable
Accounts receivable represent the NCUSIF’s claims for payment from other entities. Gross
receivables are reduced to net realizable value by an allowance for doubtful accounts as further
discussed below. The NCUSIF’s accounts receivable has two components: Intragovernmental
and Public. Intragovernmental accounts receivable represent receivables between the NCUSIF

                                               17
and another reporting entity within the Federal Government. Public accounts receivable
represent accounts receivable between the NCUSIF and a non-federal entity.

Capitalization Deposits from Insured Credit Unions
Each insured credit union pays to and maintains with the NCUSIF a capitalization deposit
amount equal to 1.00% of its insured shares. Receivables and associated non-exchange
revenue are recognized upon invoicing.

Premium Assessments from Insured Credit Unions
The NCUA Board has the statutory authority according to the FCU Act Section 202,
Administration of the Insurance Fund, to assess insured credit unions for a premium charge.
The NCUA Board may assess each insured credit union a premium charge for insurance in an
amount stated as a percentage of insured shares outstanding as of the most recently ended
reporting period if the NCUSIF’s equity ratio, as defined, is less than 1.30%. When the NCUA
Board projects that the equity ratio will, within six months, fall below 1.20%, the NCUA
Board shall establish and implement a restoration plan within 90 days, which meets the
statutory requirements and any further conditions that the NCUA Board determines
appropriate. In order to meet statutory requirements, the plan must provide that the equity ratio
will meet or exceed the minimum amount specified of 1.20% before the end of the
8-year period beginning upon the implementation of the plan (or such longer period as the
NCUA Board may determine to be necessary due to extraordinary circumstances).

Premium receivable refers to premium charge amounts that have been billed to insured credit
unions, but have not been received as of the reporting date. As the premium assessments are
collected, the portion billed on behalf of the TCCUSF is recorded as a payable to the TCCUSF.

The NCUA Board did not assess premiums for 2013 and 2012.

Allowance for Doubtful Accounts
An allowance for doubtful accounts is the NCUSIF’s best estimate of the amount of losses in
an existing receivable. Based on an assessment of collectability, the NCUSIF calculates an
allowance on an individual account basis for public accounts receivable. An account may be
impaired or written off if it is probable that the NCUSIF will not collect all principal and
interest contractually due. No allowance is calculated for intragovernmental accounts
receivable, as these are deemed to be fully collectible.

Accrued Interest Receivable
The NCUSIF recognizes accrued interest receivable for amounts of interest contractually
earned but not yet received.

Notes Receivable, Net
Notes Receivable, Net represent loans to insured credit unions as authorized by the NCUA
Board, including assistance under Section 208 of the FCU Act. Any related allowance for loss
represents the difference between the funds disbursed and the expected repayment from the
insured credit unions.




                                              18
Other - Receivables from Asset Management Estates, Net
Receivables from AMEs, Net include claims to recover payments made by the NCUSIF to
satisfy obligations to insured shareholders and to recoup administrative expenses paid on
behalf of AMEs. A related allowance for loss represents the difference between the funds
disbursed and obligations incurred and the expected repayment, when recognized, from the
AMEs pursuant to the liquidation payment priorities set forth in 12 C.F.R. §709.5(b). Assets
held by the AMEs are the main source of repayment of the NCUSIF’s receivables from the
AMEs. The recoveries from these AME assets are paid to the NCUSIF as AME assets are
monetized and to the extent a receivable is due for share payout obligations and administrative
expenses.

The allowance for loss on receivables from AMEs is based on expected asset recovery rates,
and come from several sources including:
  •  actual or pending AME asset disposition data;
  •  asset valuation data based upon the performance, quality, and type of the assets in the
     portfolio;
  •  estimated liquidation costs based on information from similar recently failed credit
     unions; and
  •  estimated AME specific administrative expenses based upon complexity and expected
     duration of the AME.

Expected asset recovery rates are evaluated during the year, but remain subject to uncertainties
because of potential changes in economic and market conditions.

Distribution Payable

In accordance with SFFAS No. 5, Accounting for Liabilities of the Federal Government, the
NCUSIF records a non-exchange liability, per Section 202(c)(3) of the FCU Act, Distributions
from Fund Required, for unpaid amounts due as of the reporting date, as discussed herein.

Insurance and Guarantee Program Liabilities

In accordance with SFFAS No. 5, all federal insurance and guarantee programs, except social
insurance and loan guarantee programs, should recognize a liability for:
  •   unpaid claims incurred, resulting from insured events that have occurred as of the
      reporting date;
  •   a contingent liability when an existing condition, situation, or set of circumstances
      involving uncertainty as to possible loss exists, and the uncertainty will ultimately be
      resolved when one or more probable future events occur or fail to occur; and
  •   a future outflow or other sacrifice of resources that is probable.

The NCUSIF records a contingent liability for probable losses relating to insured credit unions.
Through NCUA’s supervision process, NCUA applies a supervisory rating system to assess
each credit union’s relative health in the adequacy of Capital, the quality of Assets, the
capability of Management, the quality and level of Earnings, and the adequacy of Liquidity
(CAMEL), applying a rating ranging from “1” (strongest) to “5” (weakest). The year-end
contingent liability is derived by using an internal model that applies estimated failure and loss
rates using an econometric model that takes into account the historical loss history, CAMEL

                                              19
ratings, credit union level financial ratios, and macroeconomic conditions to all insured credit
unions. In addition, credit union specific analysis is performed on those credit unions where
failure is imminent or where additional information is available that may affect the estimate of
losses. In such cases, specific reserves are established.

Liabilities for loss contingencies also arise from claims, assessments, litigation, fines,
penalties, and other sources. These loss contingencies are recorded when it is probable that a
liability has been incurred and the amount of the assessment and/or remediation can be
reasonably estimated. Legal costs incurred in connection with loss contingencies are expensed
as incurred for any contingencies.

Net Position and Contributed Capital
Each insured credit union pays and maintains with the NCUSIF a capitalization deposit in the
amount equal to 1.00% of its insured shares. The NCUSIF reports the capitalization deposits
from member credit unions as contributed capital. This amount is included in the NCUSIF’s
Balance Sheets and Statements of Changes in Net Position.

Revenue Recognition
Exchange Revenue
Exchange revenues arise and are recognized when a Federal Government entity provides goods
and services to the public or to another Federal Government entity for a price. Exchange
revenue primarily consists of premium assessments, the purpose of which is to recover the
losses of the credit union system.

Non-Exchange Revenue
Non-exchange revenues are inflows of resources that the Federal Government demands or
receives by donation. Such revenues are recognized when a specifically identifiable, legally
enforceable claim to resources arises, to the extent that collection is probable (more likely than
not) and the amount is reasonably estimable. NCUSIF recognizes non-exchange revenue as
described below.

Each insured credit union pays to and maintains with the NCUSIF a capitalization deposit
amount equal to 1.00% of its insured shares. This amount is recognized as non-exchange
revenue upon receipt. In accordance with SFFAS No. 7, Accounting for Revenue and Other
Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting,
interest revenue on investments in U.S. Treasury securities is recognized as non-exchange
revenue because the main source of funds for investments comes from capital deposits.
Additionally, the related unrealized holding gains and losses on investments in U.S. Treasury
securities are excluded from net costs and reported as a component of non-exchange revenue.

Tax-Exempt Status

The NCUSIF is exempt from Federal income taxes under Section 501(c)(1) of the Internal
Revenue Code.




                                               20
2. FUND BALANCE WITH TREASURY

  FBWT balances and status at December 31, 2013 and 2012, consisted of the following:

                                                          2013                2012
       (Dollars in thousands)

       Total Fund Balance with Treasury: Revolving
       Funds                                          $          2,501    $          2,479

       Status of Fund Balance with Treasury:

       Unobligated Balance - Available                $     10,895,555    $      10,541,159
       Obligated Balances Not Yet Disbursed                     10,377               87,311
       Non-Budgetary FBWT Accounts                         (10,939,125)         (10,650,920)
       Non-FBWT Budgetary Accounts                              35,694               24,929
       Total                                          $          2,501    $          2,479


  As a revolving fund, the FBWT is used for continuing business-like activities. The NCUSIF
  collects premiums and capitalization deposits, which in turn are invested in U.S. Treasury
  securities. The proceeds are primarily held to cover insurance losses and are also used for
  merger assistance, liquidations, and other administrative expenses, without requirement for
  annual appropriations. FBWT contains monies available for future obligations as well as
  monies obligated for current activities. Non-budgetary FBWT accounts, which consist of
  investments, reduce the status of fund balance. Non-FBWT Budgetary Accounts consist of
  budgetary receivables and nonexpenditure transfers.

  As of December 31, 2013 and 2012, there were no unreconciled differences between U.S.
  Treasury records and balances reported on the NCUSIF’s general ledger.

3. INVESTMENTS

  The FCU Act, Section 203(c), as amended, provides guidance regarding U.S. Treasury security
  investments. All investments at the NCUSIF pertain to marketable (available-for-sale) U.S.
  Treasury securities of varying maturities and non-marketable (held to maturity) U.S. Treasury
  daily overnight securities. Premiums or discounts on available-for-sale securities are
  amortized using the effective interest method.




                                                     21
As of December 31, 2013 and 2012, the carrying amount, gross unrealized holding gains, gross
unrealized holding losses, and fair value of U.S. Treasury securities were as follows:
                                                     Amortized
                                                     (Premium)             Interest        Investments, Net       Net Unrealized           Carrying/
                                   Cost               Discount            Receivable             (Par)             Gain (Loss)             Fair Value
(Dollars in thousands)


  As of December 31, 2013:
  U.S. Treasury Securities
    Available-for-Sale       $      11,042,452   $       (187,992)    $         59,597     $     10,670,000       $        14,899      $      10,869,359
    Held to Maturity                  329,642                    -                     -            329,642                        -            329,642
  Total Public Investments   $      11,372,094   $       (187,992)    $         59,597     $     10,999,642       $        14,899      $      11,199,001


  As of December 31, 2012:
  U.S. Treasury Securities
    Available-for-Sale       $      10,751,623   $       (189,900)    $         63,154     $     10,320,000       $      371,661       $      10,933,384
    Held to Maturity                  359,703                    -                     -            359,703                        -            359,703
  Total Public Investments   $      11,111,326   $       (189,900)    $         63,154     $     10,679,703       $      371,661       $      11,293,087




Maturities of U.S. Treasury securities as of December 31, 2013 and 2012 were as follows:

                                                                                2013                                    2012
         (Dollars in thousands)                                               Fair value                              Fair value
         Held to Maturity (Overnights)                                $               329,642                 $               359,703
         Available-for-sale:
           Due prior to one year                                                        1,619,031                             1,622,672
           Due after one year through five years                                        5,801,859                             6,835,744
           Due after five years through ten years                                       3,448,469                             2,474,968
                                                                      $                11,199,001             $             11,293,087


There were no realized gains or losses for the years ended December 31, 2013 and 2012.

The following table includes gross unrealized losses on investment securities, for which OTTI
has not been recognized, in addition to the fair values of those securities, aggregated by
investment classification and length of time the investments have been in a loss position, at
December 31, 2013 and 2012.                          u at o o U ea ed
                                                                                  Losses
                                                                           Less than 12 months
                                                                          Unrealized
                                 (Dollars in thousands)                    Losses      Fair Value

                                 As of December 31, 2013:
                                 Available-for-sale:
                                 U.S. Treasury securities                 $ (169,841) $ 3,585,000

                                 As of December 31, 2012:
                                 Available-for-sale:
                                 U.S. Treasury securities                 $     (6,681) $ 1,390,141




                                                                     22
4. ACCOUNTS RECEIVABLE

  Intragovernmental – Accounts Receivable
  Note Due from the NCUA Operating Fund
  In 1992, the NCUSIF lent $42.0 million to the NCUA Operating Fund, pursuant to a 30-year
  note secured by the NCUA premises in Alexandria, Virginia. Interest income recognized was
  approximately $248.8 thousand and $290.0 thousand for the years ended December 31, 2013
  and 2012, respectively. The note receivable balance as of December 31, 2013 and 2012 was
  approximately $13.1 million and $14.4 million, respectively.

  The variable rate on the note is equal to the NCUSIF’s prior-month yield on investments. The
  average interest rate for the years ended December 31, 2013 and 2012 was 1.82% and 1.93%,
  respectively. The interest rate as of December 31, 2013 and 2012 was 1.78% and 1.83%,
  respectively.

  As of December 31, 2013, the above note requires principal repayments as follows:
                                                              Secured
                            Years Ending                     Term Note
                            December 31                 (Dollars in thousands)

                            2014                        $               1,341
                            2015                                        1,341
                            2016                                        1,341
                            2017                                        1,341
                            2018                                        1,341
                            Thereafter                                  6,369


                            Total                       $             13,074


  Public – Accounts Receivable
  Capitalization Deposits from Insured Credit Unions
  As of December 31, 2013 and 2012, the capitalization deposits due from insured credit unions
  were $0 and $38.0 thousand, respectively. As none of these amounts were deemed
  uncollectible, the allowance for doubtful accounts on public accounts receivable as of
  December 31, 2013 and 2012 was $0.

5. NOTES RECEIVABLE

  As of December 31, 2013 and 2012, the NCUSIF had two outstanding capital notes due from
  insured credit unions. The capital notes receivable totaled $67.5 million and $80.0 million and
  the related allowance for loss was $8.3 million and $10.0 million, for a net capital note
  receivable of $59.2 million and $70.0 million as of December 31, 2013 and 2012, respectively.
  These capital notes are subordinated to all shareholders, creditors, and any other such financial
  obligations. Accrued interest on the notes is due on a semi-annual basis. Interest on these
  notes have fixed and variable terms.

  The NCUSIF had an outstanding collateralized senior note due from an insured credit union for
  $153.0 million and $179.3 million as of December 31, 2013 and 2012, respectively. There was
                                                23
  no related allowance for loss as of December 31, 2013 and 2012. Accrued interest on the notes
  is due on a monthly basis. Interest on this note has variable terms.

  As of December 31, 2013 and 2012, the accrued interest receivable for the notes totaled
  $329.1 thousand and $202.0 thousand, respectively.

6. OTHER – RECEIVABLES FROM ASSET MANAGEMENT ESTATES

  As of December 31, 2013 and 2012, the receivable from AMEs was $1.1 billion and
  $1.1 billion, and the related allowance for loss was $963.4 million and $880.1 million, for a net
  receivable from AMEs of $119.9 million and $252.0 million, respectively.

                                                   For the Year Ended    For the Year Ended
                                                   December 31, 2013     December 31, 2012
           (Dollars in thousands)
           Gross Receivable from AME               $         1,083,287   $         1,132,137

           Allowance for Loss, beginning balance              880,108               817,320
            AME Receivable Bad Debt
              Expense (Reduction)                              (7,584)               (2,910)
            Increase in Allowance                             145,345               107,578
            Write-off of Cancelled Charters                   (54,445)              (41,880)
            Allowance for Loss, ending balance                963,424               880,108
           Receivable from AME, Net                $          119,863    $          252,029



7. OTHER LIABILITIES – INSURANCE AND GUARANTEE PROGRAM LIABILITIES

  NCUA identifies insured credit unions experiencing financial difficulty through NCUA’s
  supervisory and examination process. On both a general and specific case basis, management
  determines the estimated losses from these credit unions. NCUA also evaluates overall
  economic trends and monitors potential system-wide risk factors, such as increasing levels of
  consumer debt, bankruptcies, and delinquencies. NCUA applies the CAMEL rating system to
  assess an insured credit union’s financial condition and operations. The CAMEL rating system
  is a tool to measure risk and allocate resources for supervisory purposes. NCUA periodically
  reviews the CAMEL rating system to respond to continuing economic and regulatory changes
  in the credit union industry. The general reserve at year-end is derived by using an internal
  model that applies estimated failure and loss rates based on an econometric model that takes
  into account the historical loss history, CAMEL ratings, credit union level financial ratios, and
  macroeconomic conditions to all insured credit unions. The anticipated losses are net of
  estimated recoveries from the disposition of the assets of failed credit unions. The total
  reserves for both identified and anticipated losses resulting from insured credit union failures
  were $220.7 million and $412.5 million as of December 31, 2013 and 2012, respectively.

  In exercising its supervisory function, the NCUSIF will occasionally extend guarantees of
  assets (primarily loans) to third-party purchasers or existing insured credit unions in order to
  facilitate mergers. The NCUSIF would be obligated upon borrower nonperformance. There
  were no guarantees outstanding during 2013 or as of December 31, 2013. There were no
  guarantees outstanding during 2012 or as of December 31, 2012.

                                                   24
  In addition, the NCUSIF may grant a guaranteed line-of-credit to a third-party lender, such as a
  corporate credit union or bank, if a particular insured credit union were to have a current or
  immediate liquidity concern and the third-party lender refuses to extend credit without a
  guarantee. The NCUSIF would thereby be obligated if the insured credit union failed to
  perform. As of December 31, 2013 and 2012, there were no outstanding guaranteed lines-of-
  credit.

  On rare occasions, the NCUSIF may provide indemnifications as part of a merger assistance or
  purchase and assumption agreement to acquiring credit unions. Such indemnifications make
  the NCUSIF contingently liable based on the outcome of any legal actions. There were no
  such indemnification contingencies as of December 31, 2013 and 2012, respectively.

  The activity in the Insurance and Guarantee Program Liabilities from insured credit unions and
  AMEs was as follows:

                                                For the Year Ended    For the Year Ended
                                                December 31, 2013     December 31, 2012
         (Dollars in thousands)

         Beginning balance                      $          412,452    $          606,617
         Reserve Expense (Reduction)                       (41,054)              (74,874)
         Insurance losses claims paid                     (225,220)             (349,080)
         Net Estimated Recovery/Claim on AMEs               74,473               229,789
         Ending balance                         $          220,651    $          412,452

  The Insurance and Guarantee Program Liabilities at December 31, 2013 and December 31,
  2012 were comprised of the following:
   •   Specific reserves were $12.5 million and $95.2 million, respectively. Specific reserves
       are identified for those credit unions where failure is imminent or where additional
       information is available that may affect the estimate of losses.
   •   General reserves were $208.2 million and $317.3 million, respectively.

  In addition to these recorded contingent liabilities, additional adverse performance in the
  financial services industry could result in additional losses to the NCUSIF. The ultimate losses
  for insured credit unions will largely depend upon future economic and market conditions and,
  accordingly, could differ significantly from these estimates.

8. OTHER LIABILITIES – DISTRIBUTION PAYABLE

  Per Section 202(c) (3) of the FCU Act, Distributions from Fund Required, the NCUA Board
  shall effect a pro rata distribution to insured credit unions after each calendar year, if:
         (i)     any loans to the NCUSIF from the Federal Government, and any interest on those
                 loans, have been repaid;
         (ii)    the NCUSIF’s equity ratio exceeds the normal operating level of 1.30%; and
         (iii) the NCUSIF’s available assets ratio exceeds 1.00%.




                                                    25
  The amount of share distribution should equal the maximum possible amount that does not
  reduce the NCUSIF’s equity ratio below the normal operating level of 1.30%, and does not
  reduce the NCUSIF’s available assets ratio below 1.00%.

  At the end of any calendar year in which the TCCUSF or the NCUSIF has an outstanding
  advance from the U.S. Treasury, the NCUSIF is prohibited from making the distribution to
  insured credit unions described under Section 202 of the FCU Act. As of December 31, 2013
  and 2012, the TCCUSF had an outstanding advance from the U.S. Treasury. Where the
  TCCUSF has an outstanding advance from the U.S. Treasury, Section 217(e) of the FCU Act
  requires the NCUSIF to make a distribution to the TCCUSF of the maximum amount possible
  that does not reduce the NCUSIF’s equity ratio below the normal operating level of 1.30% and
  does not reduce the NCUSIF’s available assets ratio below 1.00%.

  As of December 31, 2013 and 2012, the NCUSIF recorded an estimate for the distribution
  payable due to the TCCUSF totaling approximately $95.3 million and $88.1 million,
  respectively; thereby bringing the equity ratio down to its normal operating level of 1.30%. As
  of December 31, 2013 and 2012, the NCUSIF’s available assets ratio was 1.26% and 1.29%,
  respectively. The equity ratio and available assets ratio calculations are discussed in Note 12.
  The $95.3 million amount payable as of December 31, 2013 is expected to be paid in the first
  half of 2014, upon receipt of certification of certain insured share information from credit
  unions.

9. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

  Program costs and revenues are separated between intragovernmental and public to facilitate
  government-wide financial reporting. Intragovernmental revenue and expenses arise from
  transactions with other federal entities. Public revenue and expenses arise from transactions
  with domestic and foreign persons and organizations outside of the Federal Government.

        Intragovernmental Costs and Exchange    For the Year Ended     For the Year Ended
        Revenue                                 December 31, 2013      December 31, 2012


        (Dollars in thousands)

        Intragovernmental Costs                $          146,009      $          137,528
        Public Costs/(Cost Reduction)                     (46,335)                (74,075)
            Total                                          99,674                  63,453

        Intragovernmental Exchange Revenue                   (249)                   (290)
        Public Exchange Revenue                            (4,301)                 (8,478)
            Total                                          (4,550)                 (8,768)
        Net Cost                               $           95,124      $           54,685


  Certain administrative services are provided to the NCUSIF by the NCUA Operating Fund.
  The NCUSIF is charged by the NCUA Operating Fund for these services based upon an annual
  allocation factor approved by the NCUA Board and derived from a study of actual usage. The
  allocation factor was 59.1% and 59.3% to the NCUSIF for 2013 and 2012, respectively. The
  cost of the services allocated to the NCUSIF, which totaled approximately $146.0 million and
  $137.5 million for the years ended December 31, 2013 and 2012, respectively, is reflected as
  an expense in the Statements of Net Cost and above in Intragovernmental Costs. These
                                                26
   transactions are settled monthly. As of December 31, 2013 and 2012, amounts due to the
   NCUA Operating Fund for allocated administrative expenses were $3.3 million and
   $2.0 million, respectively. The following table provides a breakdown of the administrative
   services provided to the NCUSIF by the NCUA Operating Fund.
         Administrative Services Reimbursed     For the Year Ended     For the Year Ended
         to the NCUA Operating Fund             December 31, 2013      December 31, 2012
         (Dollars in thousands)

         Employee Salaries                      $          78,656      $          75,177
         Employee Benefits                                 28,431                 26,178
         Employee Travel                                   16,651                 15,446
         Contracted Services                               12,462                 10,408
         Administrative Costs                               6,928                  7,472
         Rent, Communications, and Utilities                2,881                  2,847

         Total Services Provided by the NCUA
           Operating Fund                       $         146,009      $         137,528

10. AVAILABLE BORROWING AUTHORITY, END OF PERIOD

   The NCUSIF shares $6.0 billion in borrowing authority from the U.S. Treasury with the
   TCCUSF. As of December 31, 2013 and 2012, the TCCUSF had $2.9 billion and $5.1 billion
   in borrowing outstanding from the U.S. Treasury, respectively. As a result, as of
   December 31, 2013 and 2012, the NCUSIF had $3.1 billion and $0.9 billion, respectively, in
   available borrowing authority shared with the TCCUSF.

   Under the FCU Act, the NCUSIF also has the ability to borrow from the CLF. The NCUSIF is
   authorized to borrow from the CLF up to the amount of the CLF’s unused borrowing
   authority. As of December 31, 2013 and 2012, the CLF had statutory borrowing authority of
   $2.9 billion and $2.3 billion, respectively. As of December 31, 2013, the CLF had a note
   purchase agreement with the Federal Financing Bank with a maximum principal of
   $2.0 billion, all of which was unused. Advances made under the current promissory note can
   be made no later than March 31, 2014.

   At December 31, 2013 and 2012, the NCUSIF had $5.1 billion and $3.2 billion, respectively,
   in total available borrowing capacity.

11. DISCLOSURES RELATED TO THE STATEMENTS OF BUDGETARY RESOURCES

   The Statements of Budgetary Resources discloses total budgetary resources available to the
   NCUSIF, and the status of resources as of December 31, 2013 and 2012. Activity impacting
   budget totals of the overall Federal Government budget is recorded in the NCUSIF’s
   Statements of Budgetary Resources budgetary accounts. As of December 31, 2013 and 2012,
   the NCUSIF’s resources in budgetary accounts were $11.3 billion and $11.3 billion, and
   undelivered orders were $848.2 thousand and $694.0 thousand, respectively. All liabilities are
   covered by budgetary resources, excluding the Insurance and Guarantee Program Liabilities
   because they are contingent liabilities and do not require budgetary resources until the


                                                27
   liabilities are no longer contingent. All obligations incurred by the NCUSIF are reimbursable.
   The NCUSIF is exempt from OMB apportionment control.

   Budgetary resources listed on the NCUSIF’s statements and the budgetary resources found in
   the budget of the Federal Government differ because the NCUSIF’s statements are prepared as
   of December 31, calendar year, rather than as of September 30, the Federal Government’s
   fiscal year end.

12. CONTRIBUTED CAPITAL

   The Credit Union Membership Access Act of 1998 (CUMAA) mandated changes to the
   NCUSIF’s capitalization provisions effective January 1, 2000. Each insured credit union shall
   pay to and maintain with the NCUSIF a deposit in an amount equaling 1.00% of the credit
   union’s insured shares. Under Section 202(c) of the FCU Act, the amount of each insured
   credit union’s deposit is adjusted as follows, in accordance with procedures determined by the
   NCUA Board, to reflect changes in the credit union’s insured shares: (i) annually, in the case
   of an insured credit union with total assets of not more than $50.0 million; and (ii) semi-
   annually, in the case of an insured credit union with total assets of $50.0 million or more. The
   annual and semi-annual adjustments are based on insured member share deposits outstanding
   as of December 31 of the preceding year and June 30 of the current year, respectively. The
   1.00% contribution is returned to the insured credit union in the event that its insurance
   coverage is terminated, or is obtained from another source, or the operations of the NCUSIF
   are transferred from the NCUA Board. As of December 31, 2013 and 2012, contributed capital
   owed to the NCUSIF totaled $0 and $38.0 thousand, respectively. As of December 31, 2013
   and 2012, contributed capital due to insured credit unions was $1.4 million and $0,
   respectively.

   Beginning in 2000, the CUMAA mandated that distributions to insured credit unions are
   determined from specific ratios, which are based upon year-end reports of insured shares.
   Accordingly, distributions associated with insured shares at year-end are declared and paid in
   the subsequent year. This was updated with the passage of the Helping Families Save Their
   Homes Act of 2009, which states that at the end of any calendar year in which the TCCUSF has
   an outstanding advance from the U.S. Treasury, the NCUSIF is prohibited from making the
   distribution to insured credit unions as described above. In lieu of the distribution, the
   NCUSIF shall make a distribution to the TCCUSF for the maximum amount possible that does
   not reduce the NCUSIF’s equity ratio below the normal operating level of 1.30% and does not
   reduce the current available assets ratio below 1.00%.

   Pursuant to the FCU Act, the NCUSIF calculated and initiated distributions to the TCCUSF in
   the estimated amount of $95.3 million and $88.1 million, which is recognized as a payable as
   of December 31, 2013 and 2012. Thus, the NCUSIF’s calculated equity ratio after distribution
   as of December 31, 2013 and 2012 was 1.30%, based on estimated total insured shares as of
   December 31, 2013 and 2012 of $866.3 billion and $839.4 billion, respectively. Total
   contributed capital as of December 31, 2013 and 2012 was $8.7 billion and $8.3 billion,
   respectively.

   The NCUSIF equity ratio is calculated as the ratio of contributed capital plus cumulative
   results of operations excluding net cumulative unrealized gains and losses on investments, to
   the aggregate amount of the insured shares in all insured credit unions.

                                                28
   The calculated available assets ratio as of December 31, 2013 and 2012 was 1.26% and 1.29%,
   based on total estimated insured shares as of December 31, 2013 and 2012 of $866.3 billion
   and $839.4 billion, respectively. The NCUSIF available assets ratio, as defined by the FCU
   Act, is calculated as the ratio of (A) the amount determined by subtracting (i) direct liabilities
   of the NCUSIF (including the distribution payable to the TCCUSF) and contingent liabilities
   for which no provision for losses has been made, from (ii) the sum of cash and the market
   value of unencumbered investments authorized under Section 203(c), to (B) the aggregate
   amount of the insured shares in all insured credit unions.

13. FIDUCIARY ACTIVITIES

   Fiduciary activities are the collection or receipt, management, protection, accounting,
   investment, and disposition by an AME of cash and other assets, in which non-federal
   individuals or entities have an ownership interest. Fiduciary assets are not assets of the Federal
   Government. Fiduciary activities are not recognized on the basic financial statements, but are
   reported on schedules in the notes to the financial statements in accordance with SFFAS No.
   31, Accounting for Fiduciary Activities.

   The NCUA Board, as liquidating agent of the AMEs, disburses obligations owed by and
   collects money due to the liquidating credit unions through AMAC.

                                                                  For the Year Ended   For the Year Ended
         Schedule of Fiduciary Activity                           December 31, 2013    December 31, 2012
         (Dollars in thousands)
         Fiduciary Net Liabilities, beginning of year             $        (974,820)   $        (823,594)
         Net Realized Losses upon Liquidation                               (60,349)            (196,037)
         Revenues
           Interest on Loans                                                 12,207               10,775
           Other Fiduciary Revenues                                           1,973                2,154
         Expenses
           Professional & Outside Services Expenses                          (8,006)              (8,667)
           Compensation and Benefits                                         (2,892)              (1,773)
           Other Expenses                                                    (2,375)              (1,848)
         Net Change in Recovery Value of Assets and Liabilities
           Net Gain/(Loss) on Loans                                           3,509               (1,233)
           Net Gain/(Loss) on Real Estate Owned                              (2,055)                 210
           Other, Net Gain/(Loss)                                             5,319                3,313
         Decrease/(Increase) in Fiduciary Net Liabilities                   (52,669)            (193,106)
         Write off of Fiduciary Liabilities for
         Cancelled Charters                                                  54,445               41,880
         Fiduciary Net Liabilities, end of year                   $        (973,044)   $        (974,820)




                                                            29
Revenues consist of cash collected during the liquidation of assets held within the AME. Gains
and losses include the revaluation of assets based upon expected asset recovery rates, as well as
the disposition of assets and adjustments to liabilities, which contribute to the change in fiduciary
net assets/liabilities.
                                                                 As of                 As of
        Schedule of Fiduciary Net Assets/Liabilities        December 31, 2013     December 31, 2012
        (Dollars in thousands)

        Fiduciary Assets
          Loans                                             $         110,098     $         186,688
          Real Estate Owned                                            18,972                32,443
          Other Fiduciary Assets                                       17,713                25,209
        Total Fiduciary Assets                                        146,783               244,340
        Fiduciary Liabilities
          Insured Shares                                                10,841                63,861
          Accrued Liquidation Expenses                                  15,494                17,571
          Unsecured Claims                                               5,727                 4,692
          Uninsured Shares                                               4,478                   899
          Due to NCUSIF (Note 6)                                     1,083,287             1,132,137
        Total Fiduciary Liabilities                                  1,119,827             1,219,160
        Total Fiduciary Net Assets/(Liabilities)            $         (973,044)   $         (974,820)




                                                       30
14. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET

   The Reconciliation of Net Cost of Operations to Budget explains the difference between the
   budgetary net obligations and the proprietary net cost of operations. The Reconciliation of Net
   Cost of Operations to Budget consisted of the following:
                                                                                  As of                    As of
  Reconciliation of Net Cost of Operations to Budget                         December 31, 2013        December 31, 2012
  (Dollars in thousands)

  Resources Provided to Finance Activities:
  Budgetary Resources Obligated
  Budgetary Obligations Incurred                                             $          393,165       $          746,148
  Less: Spending Authority from Offsetting Collections and
   Change in Receivables from Federal Sources                                          (842,852)                (922,189)

  Net Obligations                                                                      (449,687)                (176,041)


  Other Resources:
  Net Unrealized (Gain)/Loss                                                            356,761                    78,539
  Total Resources Provided to Finance Activities                                        (92,926)                 (97,502)


  Resources Provided to Fund Items Not Part of the Net Cost of Operations:
  Change in Budgetary Resources Obligated for Goods and
   Services Not Yet Received                                                               (154)                   (331)
  Resources that Fund Expenses Recognized in Prior Periods                              (85,233)                  88,948
  Costs Capitalized on the Balance Sheet                                                548,513                  192,861
  Other Resources or Adjustments to Net Obligated Resources
   that do not Affect Net Cost of Operations                                           (225,288)                 (51,290)
  Total Resources Provided to Fund Items Not Part of the
   Net Cost of Operations                                                               237,838                  230,188


  Resources Generated to Finance the Net Cost of Operations                             144,912                  132,686


  Components of Net Cost of Operations that will not
  Require or Generate Resources in the Current Period
   Provision for Insurance Losses
     Reserve Expense (Reduction)                                                        (41,054)                 (74,874)
     AME Receivable Bad Debt Expense (Reduction)                                         (7,584)                  (2,910)
   Increase in Exchange Revenue                                                          (1,150)                   (235)
  Components not Requiring or Generating Resources
  Depreciation Expense                                                                            -                   18
  Total Components of Net Cost of Operations That Do Not
   Require or Generate Resources During the Reporting Period                            (49,788)                 (78,001)


  Net Cost of Operations                                                     $           95,124       $           54,685




   Other Resources or Adjustments to Net Obligated Resources that do not Affect Net Cost of
   Operations consists largely of unrealized losses on investments net of investment revenue and
   increases to the receivable from AME Allowance due to transfers, net of AME receivable bad
   debt expense.




                                                              31
15. SUBSEQUENT EVENTS

   Subsequent events have been evaluated from the Balance Sheet date through February 14,
   2014, which is the date the financial statements were available to be issued. Management
   determined that there were no items to disclose as of December 31, 2013.

REQUIRED SUPPLEMENTARY INFORMATION (UNAUDITED)

   Risk Assumed Information

   Insurance and Guarantee Program Liabilities

   As of December 31, 2013 and 2012, the aggregate outstanding insured shares of the insured
   credit unions were $866.3 billion and $839.4 billion, respectively. This amount represents the
   maximum potential future guarantee payments that the NCUSIF could be required to make
   under the share insurance program, without consideration of any possible recoveries.
   Additionally, pursuant to Section 217(b)(2)(A) of the FCU Act, to the extent that the required
   funding for the guarantee obligations exceeds the funds available in the TCCUSF, the NCUSIF
   will provide the necessary funds. These amounts bear no direct relationship to the NCUSIF's
   anticipated losses.

   As discussed previously herein, NCUA identifies credit unions at risk of failure through the
   supervisory and examination process, and estimates losses based upon economic trends and
   credit unions’ financial condition and operations. NCUA also evaluates overall economic
   trends and monitors potential credit union system-wide risk factors, such as increasing levels of
   consumer debt, bankruptcies, and delinquencies. NCUA applies the CAMEL rating system to
   assess a credit union’s financial condition and operations. The CAMEL rating system is a tool
   to measure risk and allocate resources for supervisory purposes. NCUA periodically reviews
   the CAMEL rating system to respond to continuing economic and regulatory changes in the
   credit union industry. The aggregate amount of reserves recognized for credit unions at risk of
   failure was $220.7 million and $412.5 million as of December 31, 2013 and 2012, respectively.
   At December 31, 2013 and 2012, the general reserves were $208.2 million and $317.3 million,
   respectively. At December 31, 2013 and 2012, the specific reserves resulting from insured
   credit unions' expected failures were $12.5 million and $95.2 million, respectively.

   The NCUSIF's contingent liability decreased by $191.8 million from 2012 to 2013, and
   decreased by $194.1 million from 2011 to 2012. The credit union industry improved during
   2013 as reflected by the reduction in assets in CAMEL 3, 4 and 5 rated credit unions as
   compared to 2012. Assets in CAMEL 3, 4 and 5 rated credit unions dropped to $122.4 billion
   at the end of 2013, versus $138.6 billion at the end of 2012. Improvements were also seen with
   the system-wide net worth ratio; this ratio increased to 10.7% from 10.4%. These
   improvements, as well as other trends, helped contribute to a reduction in amounts for the
   Insurance and Guarantee Program Liabilities on the NCUSIF Balance Sheets.




                                                 32
Fees and Premiums

During 2013 and 2012, the NCUA Board did not assess premiums to insured credit unions
from the NCUSIF.

Sensitivity, Risks and Uncertainties of the Assumptions

During 2013, NCUA implemented the use of the econometric reserve model to improve the
precision of the future loss forecast. As discussed previously herein, the NCUA estimates the
anticipated losses resulting from insured credit union failures by evaluating imminent failures
and using an internal model that applies estimated failure and loss rates based on an
econometric model that takes into account the historical loss history, CAMEL ratings, credit
union level financial ratios, and macroeconomic conditions to all insured credit unions. The
effectiveness of the reserving methodology is evaluated by applying analytical techniques to
review variances between projected losses and actual losses and adjustments are made
accordingly. Actual losses will largely depend on future economic and market conditions and
could differ materially from the anticipated losses recorded by the NCUSIF as of December
31, 2013.

The development of assumptions for certain key input variables of our estimation model is a
highly subjective process that involves significant judgment and will change over time. Future
values are difficult to estimate, especially over longer timeframes. Key assumptions in the
modeling include failure and loss rates. The failure rate is developed based on actual failures
and historical migration trends in the CAMEL ratings, and incorporates actual data on
macroeconomic trends such the consumer price index and geographic housing prices, as well
as credit union system-wide factors such as delinquencies and charge-offs. The loss rate is
partly subjective and is developed based on historical loss experience from actual failures, and
incorporates the NCUA's expectations and assumptions about anticipated recoveries. The
assumptions developed for the estimation model are periodically evaluated by the NCUA to
determine the reasonableness of those assumptions over time.

The internal model provides a range of losses. The minimum in the range of losses is the 50
percent confidence level forecast and the upper bound is the 90 percent confidence level
forecast. The NCUSIF general reserve is sensitive to assumptions made about the loss rates
under various scenarios. For example, changing the assumptions to exclude staticial outliers
for calculating loss rates results in a change in the range of losses. Additionally,
management’s judgment is used to select a point in the range of projected losses to record
probable contingent liabilities in compliance with SFFAS No. 5, which was $208.2 million in
anticipated losses recognized on the NCUSIF's balance sheet at December 31, 2013. In
selecting the point in the range of the forecasts, management considers overall credit union
economic trends and system-wide risk factors, such as increasing levels of consumer debt,
bankruptcies and delinquencies.

Consistent with accounting standards, the assumptions and method used to estimate the
anticipated losses will require continued calibration and refinement as circumstances change.




                                              33
